No. 20-794
In the

Supreme Court of the United States
SERVOTRONICS, INC.,
Petitioner,
v.
ROLLS-ROYCE PLC AND THE BOEING COMPANY,
Respondents.
On Writ of Certiorari to the United States
Court of A ppeals for the Seventh Circuit

JOINT APPENDIX
Lisa S. Blatt
Counsel of Record
for Respondent
Rolls-Royce PLC
Williams & Connolly LLP
725 12th Street, NW
Washington, DC 20005
(202) 434-5000
lblatt@wc.com
Scott P. Martin
Counsel of Record
for Respondent
The Boeing Company
Perkins Coie LLP
1201 Third Avenue, Suite 4900
Seattle, WA 98101
(206) 359-8000
smartin@perkinscoie.com

Stephen R. Stegich
Counsel of Record
for Petitioner
K atherine B. Posner
David P. Yates
Wendy A. Grossman
Condon & Forsyth
Times Square Tower
Seven Times Square
New York, New York 10036
(212) 490-9100
sstegich@condonlaw.com

PETITION FOR CERTIORARI FILED DECEMBER 7, 2020
CERTIORARI GRANTED MARCH 22, 2021

i
TABLE OF APPENDICES
Page
a ppendi x a — RELEVANT DOCK ET
	ENTRIES .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1a
Appendix b — ex parte application
of the united states district
court for the northern district
of illinois , ea stern di v ision,
filed october 26, 2018 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 15a
Appendix c — declaraton in the
united states district court
for the northern district of
i ll i n o i s , e a st e r n d i v i s i o n ,
filed october 26, 2018 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 19a
Appendix D — AFFIDAVIT OF RICHARD
H. DONOHUE IN the united states
DISTRICT COURT FOR THE NORTHERN
DISTRICT OF ILLINOIS , EA ST ERN
	DIVISION, FILED OCTOBER 26, 2018 .  .  .  .  .  .  .  . 25a
A ppendi x E — NOTICE OF MOTION
of the united states DISTRICT
COURT FOR THE NORTHERN DISTRICT
OF ILLINOIS , EA STERN DI V ISION,
	FILED NOVEMBER 14, 2018  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 44a
Appendix F — notification of docket
en try of t h e u n i t ed stat e s
district court for the northern
district of illinois , ea st ern
division, filed november 19, 2018 .  .  .  .  .  . 46a

ii
Table of Appendices
Page
Appendix G — subpoena to the united
states district court for the
northern district of illinois,
filed november 20, 2018  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 48a
A ppendi x H — motion to vacate
the order of the united states
district court for the northern
district of illinois , ea st ern
division, filed november 27, 2018 .  .  .  .  .  . 65a
Appendix I — notification of docket
en try of t h e u n i t ed stat e s
district court for the northern
district of illinois , ea st ern
division, filed april 22, 2019 .  .  .  .  .  .  .  .  .  .  . 67a
A p p e n d i x J — O R DE R o f t h e
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
ILLINOIS, EASTERN DIVISION, FILED
	APRIL 22, 2019 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 69a
A p p e n di x K — o p i n ion o f t h e
united states court of appeals
FOR THE SEVENTH CIRCUIT, FILED
SEPTEMBER 22, 2020  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 78a

1a
Appendix ADOCKET ENTRIES
APPENDIX A — RELEVANT
RELEVANT DOCKET ENTRIES FROM THE
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT,
NO. 19-1847
Date Filed

#

Docket Text

04/30/2019

1

Private civil case docketed. Fee paid.
Docketing Statement due for Appellant
Ser votronics, Inc. by 05/06/2019.
Transcript information sheet due by
05/14/2019. Appellant’s brief due on or
before 06/10/2019 for Servotronics, Inc.
[1] [7001596] [19-1847] (ER) [Entered:
04/30/2019 03:27 PM]

05/03/2019

2

Docketing Statement filed by Appellant
Servotronics, Inc.. Prior or Related
proceedings: No. [2] [7002506] [191847] (DeGrand, Karen) [Entered:
05/03/2019 03:40 PM]
***

06/07/2019

11

Submitted appellant brief by Karen Kies
DeGrand for Appellant Servotronics,
Inc.. [11] NOTE: Access to this entry
is limited to counsel of record. Once
the document is approved by the
court, it will be filed onto the court’s
docket as a separate entry which will
be open to the public. [7009973] [19-

2a
Appendix A
1847] (DeGrand, Karen) [Entered:
06/07/2019 05:39 PM]
06/07/2019

12

Appellant’s brief filed by Appellant
Servotronics, Inc.. Appellee’s brief
due on or before 07/08/2019 for Boeing
Company and Rolls-Royce PLC. Paper
copies due on 06/17/2019 Electronically
Transmitted. [12] [7010028] [19-1847]
(CAH) [Entered: 06/10/2019 09:59 AM]
***

07/08/2019

15

Submitted appellee brief by Scott P.
Martin for Appellees Boeing Company
and Rolls-Royce PLC. [15] NOTE:
Access to this entry is limited to
counsel of record. Once the document
is approved by the court, it will be filed
onto the court’s docket as a separate
entry which will be open to the public.
[7015841] [19-1847] (Martin, Scott)
[Entered: 07/08/2019 03:56 PM]

07/08/2019

16

Appellee’s brief filed by Appellees
Boeing Company and Rolls-Royce
PLC. Appellant’s reply brief, if any,
is due on or before 07/29/2019 for
Appellant Servotronics, Inc.. Paper
copies due on 07/15/2019 Electronically
Transmitted. [16] [7015875] [19-1847]
(DRS) [Entered: 07/08/2019 04:45 PM]

3a
Appendix A
07/29/2019

17

Submitted appellant reply brief by
Karen Kies DeGrand for Appellant
Servotronics, Inc.. [17] NOTE: Access
to this entry is limited to counsel of
record. Once the document is approved
by the court, it will be filed onto the
court’s docket as a separate entry
which w ill be open to the public.
[7020234] [19-1847] (DeGrand, Karen)
[Entered: 07/29/2019 04:23 PM]

07/29/2019

18

Appel la nt ’s reply br ief f i led by
Appellant Servotronics, Inc. Paper
copies due on 08/06/2019. Electronically
Transmitted. [18] [7020310] [19-1847]
(DSL) [Entered: 07/30/2019 09:13 AM]
***

09/19/2019

25

Case heard and taken under advisement
by panel: Diane S. Sykes, Circuit
Judge; David F. Hamilton, Circuit
Judge and Michael B. Brennan, Circuit
Judge. [25] [7031428] [19-1847] (PNR)
[Entered: 09/19/2019 02:03 PM]

09/19/2019

26

Case arg ued by Ms. Karen K ies
DeGrand for Appellant Servotronics,
Inc. and Mr. Michael S. Paisner
for Appellee Boeing Company. [26]
[7031435] [19-1847] (PNR) [Entered:
09/19/2019 02:13 PM]

4a
Appendix A
***
09/22/2020

37

Filed opinion of the court by Judge
Sykes. AFFIRMED. Diane S. Sykes,
Chief Circuit Judge; David F. Hamilton,
Circuit Judge and Michael B. Brennan,
Circuit Judge. [37] [7109641] [19-1847]
(FP) [Entered: 09/22/2020 03:35 PM]

09/22/2020

38

ORDER: Final judgment filed per
opinion. With costs: yes. [38] [7109646]
[19-1847] (FP) [Entered: 09/22/2020
03:41 PM]

10/14/2020

39

Mandate issued. No record to be
returned. [39] [7114364] [19-1847]
(DRS) [Entered: 10/14/2020 08:30 AM]

10/14/2020

12/14/2020

FOR COURT USE ONLY: Certified
copy of 09/22/2020 Final Opinion and
Final Judgment, with Mandate sent to
the District Court Clerk. [7114367-2]
[7114367] [19-1847] (DRS) [Entered:
10/14/2020 08:34 AM]
40

Filed notice from the Supreme Court
of the filing of a Petition for Writ of
Certiorari. 20-794 [40] [7128239] [191847] (PS) [Entered: 12/14/2020 02:20
PM]

5a
Appendix A
03/22/2021

41

Filed order from the Supreme Court
GRANTING the Petition for Writ of
Certiorari. Justice Alito took no part
in the consideration or decision of this
petition. 20-794 [41] [7149028] [19-1847]
(PS) [Entered: 03/22/2021 03:53 PM]

6a
Appendix A
RELEVANT DOCKET ENTRIES FROM THE
U.S. DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
(CHICAGO)
CIVIL DOCKET FOR
CASE #: 1:18-CV-07187
Date Filed

#

Docket Text

10/26/2018

1

CIVIL Cover Sheet (Adler, Michael)
(Entered: 10/26/2018)
***

10/26/2018

3

M I S C EL L A N E OU S C A S E b y
Servotronics, Inc. Application for
Order Pursuant to 28 U.S.C. 1782 to
take discovery for use in a foreign
proceeding Filing fee $ 47, receipt
nu mb e r 0 75 2 -1511 2 6 9 0 . (A d le r,
Michael) (Entered: 10/26/2018)

10/26/2018

4

M E MOR A N DU M OF L AW b y
Ser votronics, Inc. in Suppor t of
Application of Servotronics Filing fee
$ 47, receipt number 0752-15112748.
(Adler, Michael) Modified title by
Clerk’s office on 10/29/2018 (yap,).
(Entered: 10/26/2018)

10/26/2018

5

MEMORANDUM by Servotronics,
Inc. In Support of Application for

7a
Appendix A
Order Pursuant to 28 U.S.C. Section
1782 (Adler, Michael) Duplicate entry
of document #4 (yap,). (Entered:
10/26/2018)
10/26/2018

6

AFFIDAVIT of Akhil Shah regarding
miscellaneous case 3 In Support of
Application for Order Pursuant to 28
U.S.C. Section 1782 (Adler, Michael)
(Entered: 10/26/2018)

10/26/2018

7

AFFIDAVIT of Richard H. Donohue
regarding miscellaneous case 3 In
Support of Application for Order
Pursuant to 28 U.S.C. Section 1782
(Adler, Michael) (Entered: 10/26/2018)

10/29/2018		

CASE ASSIGNED to the Honorable
Elaine E. Bucklo. Designated as
Mag istrate Judge the Honorable
Sidney I. Schenkier. Case assignment:
Random assignment. (rc,) (Entered:
10/29/2018)
***

10/29/2018		

***Civil Case Terminated. (yap,)
(Entered: 10/29/2018)
***

8a
Appendix A
11/14/2018

10

Ex Parte Application of Servotronics
for an Order pursuant to 28 U.S.C.
Section 1782 to take Discovery for
use in a foreign Pleading NOTICE
of Motion by Michael Harris Adler
for presentment of before Honorable
Elaine E. Bucklo on 11/28/2018 at
09:30 AM. (Adler, Michael) (Entered:
11/14/2018)

11/19/2018

11

MINUTE entry before the Honorable
Elaine E. Bucklo: Ex Parte Application
of Servotronics for an Order pursuant
to 28 U.S.C. Section 1782 to take
Discovery for use in a foreign Pleading
3 is granted. No appearance required
on 11/28/2018. Mailed notice. (mgh,)
(Entered: 11/19/2018)

11/20/2018

12

Subpoena to Produce Documents,
Information, or Objects or to Permit
Inspection of Premises in a Civil Action
by Servotronics, Inc. (Attachments:
# 1 Exhibit Exhibit A)(Donohue,
Richard) (Entered: 11/20/2018)
***

11/27/2018

14

MOTION by Intervenor Rolls-Royce
PLC to vacate Order 11 , Quash
Subpoena and Compel Arbitration
(Walker, Richard) (Entered: 11/27/2018)

9a
Appendix A
11/27/2018

15

MEMORANDUM by Rolls-Royce
PLC in support of motion to vacate
14 Order 11 , Quash Subpoena and
Compel Arbitration (Walker, Richard)
(Entered: 11/27/2018)

11/27/2018

16

Intervenor Rolls-Royce PLC’s NOTICE
of Motion by Richard Alan Walker for
presentment of motion to vacate 14
before Honorable Elaine E. Bucklo
on 11/30/2018 at 09:30 AM. (Walker,
Richard) (Entered: 11/27/2018)
***

12/14/2018

22

RESPONSE by The Boeing Company
in Support of MOTION by Intervenor
Rolls-Royce PLC to vacate Order
11 , Quash Subpoena and Compel
Arb i tr a ti o n 14 ( La r son, Bat e s)
(Entered: 12/14/2018)
***

12/14/2018

24

MEMORANDUM by Servotronics,
Inc. in Opposition to motion to vacate
14 (Attachments: # 1 Declaration
Declaration of Akhil Shah, # 2 Affidavit
Affidavit of Stephen Stegich, # 3
Notice of Filing Notice of Filing Proof
of Service)(Adler, Michael) (Entered:
12/14/2018)

10a
Appendix A
12/20/2018

25

MINUTE entry before the Honorable
Elaine E. Bucklo: Ruling on Intervenor
Rolls-Royce PLC’s motion to vacate
the Court’s Order, Quash Subpoena,
and Compel Arbitration 14 before
Honorable Elaine E. Bucklo is reset
for 1/18/2019 at 9:30 a.m. Mailed notice.
(mgh,) (Entered: 12/20/2018)

12/28/2018

26

REPLY by Rol ls -Royce PLC t o
memorandum in support of motion 15
to Vacate the Court’s Order, Quash
Subpoena, and Compel Arbitration
(Attachments: # 1 Exhibit Exhibit
A) (Obi a l a , M at t he w) ( Ent e r e d:
12/28/2018)
***

01/04/2019

29

MEMORANDUM by Servotronics,
Inc. in Opposition to motion to vacate
14 Motion for Leave to File SurReply (Adler, Michael) (Incorrect
title on document). (yap,). (Entered:
01/04/2019)
***

01/16/2019

31

MINUTE entry before the Honorable
Elaine E. Bucklo: Ruling on Intervenor
Rolls-Royce PLC’s motion to vacate
the Court’s Order, Quash Subpoena,

11a
Appendix A
and Compel Arbitration 14 before
Honorable Elaine E. Bucklo is reset
for 2/1/2019 at 9:30 a.m. No appearance
required on 1/18/2019. Mailed notice.
(mgh,) (Entered: 01/16/2019)
01/29/2019

32

MINUTE entry before the Honorable
Elaine E. Bucklo: Ruling on Intervenor
Rolls-Royce PLC’s motion to vacate
the Court’s Order, Quash Subpoena,
and Compel Arbitration 14 before
Honorable Elaine E. Bucklo is reset
for 2/8/2019 at 9:30 a.m. No appearance
required on 2/1/2019. Mailed notice.
(mgh,) (Entered: 01/29/2019)

02/07/2019

33

MINUTE entry before the Honorable
Elaine E. Bucklo: Ruling on Intervenor
Rolls-Royce PLC’s motion to vacate
the Court’s Order, Quash Subpoena,
and Compel Arbitration 14 before
Honorable Elaine E. Bucklo is reset for
2/15/2019 at 9:30 a.m. No appearance
required on 2/8/2019. Mailed notice.
(mgh,) (Entered: 02/07/2019)

02/07/2019

34

MINUTE entry before the Honorable
Elaine E. Bucklo: Ruling on Intervenor
Rolls-Royce PLC’s motion to vacate
the Court’s Order, Quash Subpoena,
and Compel Arbitration 14 is reset
for Oral Argument on 2/21/2019 at

12a
Appendix A
10:15 a.m. Ruling set for 2/15/2019
is stricken. Mailed notice. (mgh,)
(Entered: 02/07/2019)
***
02/28/2019

40

MINUTE entry before the Honorable
Elaine E. Bucklo: In-court hearing
held on 2/28/2019. Mailed notice. (mgh,)
(Entered: 02/28/2019)
***

03/15/2019

42

		

TRANSCRIPT OF PROCEEDINGS
held on 2-28-19 before the Honorable
Elaine E. Bucklo. Order Number:
3 3 8 8 2 . Cou r t Repor t er Cont act
In for mation: Sand ra M. Mu l l i n,
Sandra_Mullin@ilnd.uscourts.gov,
312-554-8244.
IMPORTANT: The transcript may be
viewed at the court’s public terminal
or purchased through the Cour t
Reporter/ Transcriber before the
deadline for Release of Transcript
Restriction. After that date it may be
obtained through the Court Reporter/
Transcriber or PACER. For further
information on the redaction process,
see the Court’s web site at www.ilnd.
uscourts.gov under Quick Links select

13a
Appendix A
Policy Regarding the Availability of
Transcripts of Court Proceedings.
		

Redaction Request due 4 /5/2019.
Redacted Transcript Deadline set
for 4/15/2019. Release of Transcript
Restriction set for 6/13/2019. (Mullin,
Sandra) (Entered: 03/15/2019)

04/22/2019

43

MINUTE entry before the Honorable
Elaine E. Bucklo: Intervenor’s RollsRoyce PLC’s motion to vacate the
November 19, 2018 courts’s order,
and to quash the subpoena served on
Boeing is granted. Enter Order. Mailed
notice. (mgh,) (Entered: 04/22/2019)

04/22/2019

44

ORDER signed by the Honorable
Elaine E. Bucklo on 4/22/2019. Mailed
notice. (mgh,) (Entered: 04/22/2019)

04/29/2019

45

NOTICE of appeal by Servotronics,
Inc. regarding orders 44 Filing fee $
505, receipt number 0752-15768608.
Receipt number: n (DeGrand, Karen)
(Entered: 04/29/2019)
***

04/30/2019

47

TRANSMITTED to the 7th Circuit
the short record on notice of appeal
45 . Notified counsel (tt,) (Entered:
04/30/2019)

14a
Appendix A
04/30/2019

48

ACKNOWLEDGMENT of receipt
of short record on appeal regarding
notice of appeal 45 ; USCA Case No.
19-1847 (jjr,) (Entered: 04/30/2019)
***

10/14/2020

50

C ERT I F I ED C OP Y OF US CA
J U D GM EN T d at e d 0 9 / 2 2 / 2 0 2 0
regarding notice of appeal 45 ; USCA
No. 19-1847; The judgment of the
District Court is AFFIRMED, with
costs, in accordance with the decision
of this court entered on this date. (jn,)
(Entered: 10/15/2020)

10/14/2020

51

CERTIFIED COPY OF OPINION
from the USCA for the 7th Circuit;
Argued 9/19/2019; Decided 9/22/2020 in
USCA case no. 19-1847. (jn,) (Entered:
10/15/2020)

15a
Appendix
Appendix b — ex
parteBapplication of
the united states district court for
the northern district of illinois,
eastern division, filed october 26, 2018
IN THE UNITED STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF ILLINOIS,
EASTERN DIVISION
Case No. 18-CV-7187
In re: Application of SERVOTRONICS, INC.,
for an Order Pursuant to 28 U.S.C. §1782 to
Take Discovery for Use in
a Foreign Proceeding
EX PARTE APPLICATION OF SERVOTRONICS
FOR AN ORDER PURSUANT TO 28 U.S.C. § 1782
TO TAKE DISCOVERY FOR USE IN A
FOREIGN PROCEEDING
Based upon the concurrently filed Memorandum of
Law, Declaration of Akhil Shah QC (“Shah Decl.”), and
Affidavit of Richard H. Donohue (“Donohue Aff.”), and
the supporting documents annexed thereto, Applicant
SERVOTRONICS, INC. (“SERVOTRONICS”), by and
through DONOHUE BROWN MATHEWSON & SMYTH
LLC, applies to this Court pursuant to 28 U.S.C. § 1782
for an Order granting SERVOTRONICS leave to serve
in compliance with all relevant provisions of Fed. R. Civ.
45 the Subpoena Duces Tecum attached as Exhibit “A”
to the Donohue Affidavit upon The Boeing Company
(“Boeing”), whose corporate residence is in this district
at 100 North Riverside Plaza, Chicago, Illinois 60606,

16a
Appendix B
whereby SERVOTRONICS may gather documents and
other materials for use in a foreign proceeding. Applicant
SERVOTRONICS requests that the Court grant the leave
ex parte. As discussed in the Donohue Affidavit, this is
the normal procedure for Section 1782 applications, and
the respondent can make its objections, if any, pursuant
to Fed. R. Civ. P. 45(c)(3) and other discovery rules when
responding to the Subpoena.
Applicant SERVOTRONICS is the Respondent in
an arbitration proceeding brought by Rolls-Royce, as
Claimant, that is currently pending in London, England
(“London Proceeding”). Boeing is not a party to the
London Proceeding.
As discussed in the accompanying Memorandum of
Law, SERVOTRONICS believes the documents and other
information sought contain important information relevant
to SERVOTRONICS’ defenses against the underlying
claims. SERVOTRONICS has asked Claimant and Boeing
for copies of the documents and other materials described
in the Subpoena but neither has provided them.
As set forth in the accompanying Memorandum of Law
and Shah Declaration, this Application meets the statutory
elements of 28 U.S.C. § 1782 and the discretionary factors
identified in Intel Corp. v. Advanced Micro Devices, Inc.,
542 U.S. 241, 264-65, 124 S. Ct. 2466, 2483 (2004). In brief,
the statutory elements are satisfied because Boeing resides
and is found in this District, the London Proceeding is a
proceeding before a foreign tribunal (a split in authority
as to whether private arbitration constitutes a tribunal is

17a
Appendix B
addressed in the Memorandum), and SERVOTRONICS
seeks documents and other materials for use in that
proceeding.
As for the discretionary factors, the documents and
materials are not accessible by other means—for one
thing, Boeing is not a party to the arbitration—production
of the evidence will not circumvent any policies of the
United States or the United Kingdom or violate any
court/arbitration order or directive, evidence collected
may be “received” under U.K. law and CIArb rules in
the London Proceeding, and the documents and materials
are precisely identified and their production accordingly
will not be unduly intrusive or burdensome. (Protective
measures available under the Federal Rules of Civil
Procedure can be applied with respect to privileged and
proprietary information.) The London Proceeding is in
its early stages and we are informed that no hearing will
likely take place prior to July 2019 at the earliest. See
Shah Decl., ¶16.
For these reasons, SERVOTRONICS respectfully
requests that this Court grant its Application for an Order
granting SERVOTRONICS leave to serve the Subpoena
annexed as Exhibit “A” to the Donohue Affidavit upon The
Boeing Company.

18a
Appendix B
Dated: Chicago, Illinois
October 26, 2018
DONOHUE
BRO W N
MATHEWSON & SMYTH LLC
and CONDON & FORSYTH LLP
By:

Michael H. Adler
Michael Adler, one of the
attorneys for Applicant
SERVOTRONICS, INC.

Richard H. Donohue
(ARDC #3124238)
Michael H. Adler
(ARDC #6320198)
140 South Dearborn, Suite 800
Chicago, IL 60603
Tel: (312) 422-0900
Fax: (312) 422-0909
- and –
CONDON & FORSYTH LLP
Stephen R. Stegich, Esq.
Times Square Tower
7 Times Square
New York, New York 10036
Tel: (212) 490-9100
Fax: (212) 370-4453
Attorneys for Applicant
SERVOTRONICS, INC.

19a
Appendix C IN THE UNITED
APPENDIX C — DECLARATION
STATES DISTRICT COURT FOR THE NORTHERN
DISTRICT OF ILLINOIS, EASTERN DIVISION,
FILED OCTOBER 26, 2018
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS,
EASTERN DIVISION
In re: Case No. 18-CV-7181
APPLICATION OF SERVOTRONICS, INC.,
FOR AN ORDER PURSUANT TO 28 U.S.C.
§ 1782 TO TAKE DISCOVERY FOR USE
IN A FOREIGN PROCEEDING
DECLARATION OF AKHIL SHAH QC IN
SUPPORT OF APPLICATION FOR AN ORDER TO
TAKE DISCOVERY PURSUANT TO 28 U.S.C. § 1782
I, Akhil Shah QC, declare and state as follows:
1. I am one of Her Majesty’s Counsel. I was admitted
as a barrister to practise in England and Wales in 1990
and appointed Queen’s Counsel in 2010. I have practised
continuously in England since 1990. My practice covers
many areas of civil law, including general commercial law,
aviation, insurance and reinsurance, and product liability.
I am a member of the London Court of International
Arbitration and have participated in many arbitrations,
as an advocate and an arbitrator. I also regularly act as
leading counsel in judicial proceedings before the English
Courts.

20a
Appendix C
2. I am submitting this Declaration in support of
SERVOTRONICS’ Application for an Order Pursuant to
28 U.S.C. § 1782 to Take Discovery for Use in a Foreign
Proceeding.
3. SERVOTRONICS has been named as the
Respondent in a Notice of Arbitration dated 18 September
2018 in which Rolls-Royce PLC is the Claimant
4. The relationship between the parties is subject to a
Long Term Agreement (“LTA’’) dated 1 June 2009 between
Rolls-Royce Goodrich Engine Control Systems Limited
and SERVOTRONICS. The LTA has been amended (and
novated in connection with a Rolls-Royce company name
change) but the arbitration provision in Clause 27.4 of the
original LTA remains in effect and provides in pertinent
part that, if the parties cannot resolve any disputes by
negotiation or mediation:
[T]he dispute shall be referred to and finally
resolved by arbitration in Bir mingham,
England, under the rules of the Chartered
Institute of Arbitrators, and these Rules are
deemed to be incorporated by reference into
this clause.
5. SERVOTRONICS does not contest the applicability
of Clause 27.4 and served its Response on 16 October 2018.
6. Boeing is not a party to the LTA or the arbitration.

21a
Appendix C
7. W hile the underlying events are described
in SERVOTRONICS’s Application and Supporting
Memorandum of Law, as a matter of convenience, I include
a brief summary of the events herein
8. In May 2015, SERVOTRONICS supplied a Metering
Valve Servo Valve (“MVSV”) that was incorporated in the
hydro-mechanical unit (“HMU”) of a Rolls-Royce engine
installed on a new Boeing 787 Dreamliner aircraft. During
pre-delivery flight and ground tests conducted by Boeing
and Rolls-Royce personnel, due to a manufacturing error,
an unwanted wafer of metal dislodged in the MVSV
affecting the fuel flow in the engine. In response, the
Boeing flight and ground crews engaged in troubleshooting
of the engine, causing a fire to start in the tailpipe. The
fire caused substantial damage to the aircraft and engine
before it could be extinguished.
9. Boeing ultimately sought compensation for all
alleged resulting damages from Rolls-Royce. In or
about March 2017, Rolls-Royce settled Boeing’s claim,
without SERVOTRONICS’s participation. Rolls-Royce
then demanded indemnity from SERVOTRONICS, who
rejected the demand.
10. Subsequent efforts to mediate and settle the claim
were unsuccessful.
11. Accordingly on 18 September 2018 Rolls-Royce
served its Notice of Arbitration.
12. In the Notice of Arbitration, Rolls-Royce seeks
approximately $12.8 million from SERVOTRONICS on

22a
Appendix C
the alleged grounds that the fire was proximately caused
by the product defect in the MVSV.
13. In its Response, SERVOTRONICS denies liability
because—without prejudice to further arguments
SERVOTRONICS may develop in defence against the
claim—the numerous improper, inadequate, and incorrect
actions and failures to act of Boeing and Rolls-Royce
personnel constitute the legal cause of the damage
and intervening and superceding causes of the fire.
SERVOTRONICS also contests the reasonableness of
the settlement.
14. Arbitration under the Rules of the Chartered
Institute of Arbitrators (“CIArb”) is a first-instance
adjudicatory proceeding. The parties gather evidence
and submit it to the arbitrator(s), along with Statements
of Claims and Defences. Evidence obtained through
discovery, including discovery conducted in foreign
countries, may be submitted for use in arbitration under
CIArb Rules. Witnesses including expert witnesses may
be asked to testify. See CIArb Rules (1 December 2015),
Exhibit “A” hereto, Arts. 17, 20-21, 27-29; see also South
Carolina Insurance Co. v. Assurantie Maatschappij “de
Zeven Provincien” NV [1987] AC 24 and Phipson on
Evidence, 19th Ed, at 8-42, attached as Exhibits “B” and
“C” hereto (according to House of Lords, English courts
allow parties to obtain evidence in any manner they wish
so long as it is not illegal).

23a
Appendix C
15. The arbitrator tribunal (in this case three
arbitrators) will consider the evidence and arguments
made by each of the parties. There will be an oral hearing
to adduce the evidence and test the arguments after which
the tribunal will determine liability issues and make an
award. See, e.g., CIArb Rules, Attachment “A” hereto,
Arts. 7, 27, 28 & 33.
16. Article 34(2) of the CIArb Rules provides that any
award shall be “final and binding,” and, as quoted above,
the LTA provides for disputes to be “fully resolved” at
arbitration. Article 1(3) of the CIArb Rules, however,
confirms that the Rules are subject to “the law applicable
to the arbitration from which the parties cannot derogate,”
and the provision of law “shall prevail” in such instances.
17. Clause 29 of the LTA provides that it shall be
governed by the laws of “England and Wales”. The laws
of England and Wales include the 1996 Arbitration Act, a
copy of which is attached as Exhibit “D” hereto. According
to Section 1(c) of the Arbitration Act, courts may intervene
in arbitrations “as provided by this Part.”
18. Schedule 1 to the Act, as referenced in Section
4(1), identifies certain provisions as “mandatory.” Among
the mandatory provisions are Section 67, which allows
parties to challenge any arbitration award on grounds
of substantive jurisdiction, and Section 68, which allows
judicial challenge based on “serious irregularities.”
19. The arbitration was only recently commenced and
there have been no activities under the CIArb Rules other

24a
Appendix C
than service of the Notice of Arbitration and Response
thereto. The CIArb Rules allow but do not mandate preapproval of discovery by the arbitral.
20. In this case the better practice is to serve the
discovery requests prior to appointment of the arbitral
panel so as not to delay the final resolution of the
arbitration proceeding.
21. By my estimate, based on my experience in similar
arbitrations, no hearings will commence prior to July 2019
at the earliest.
22. I have reviewed the Subpoena attached to the
Affidavit of Richard H. Donohue being filed concurrently
and confirm that no judicial or arbitral authority in the
U.K. has rejected any effort by Applicant to obtain the
requested documents and other materials, and that
the documents and other materials sought are directly
relevant to SERVOTRONICS’s defences to the claims
made in Rolls-Royce’s Notice of Arbitration.
I declare, under penalty of perjury under the laws of
the United States of America, that the foregoing is true
and correct.
Executed this 25th day of October 2018.
/s/				
AKHIL SHAH, Q.C.

25a
Appendix D OF RICHARD H.
APPENDIX D — AFFIDAVIT
DONOHUE IN THE UNITED STATES DISTRICT
COURT FOR THE NORTHERN DISTRICT OF
ILLINOIS, EASTERN DIVISION,
FILED OCTOBER 26, 2018
IN THE UNITED STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF ILLINOIS,
EASTERN DIVISION
Case No. 18-cv-7181
IN RE:
APPLICATION OF SERVOTRONICS, INC.,
FOR AN ORDER PURSUANT TO 28 U.S.C.
§ 1782 TO TAKE DISCOVERY FOR USE
IN A FOREIGN PROCEEDING
AFFIDAVIT OF RICHARD H. DONOHUE IN
SUPPORT OF EX PARTE APPLICATION FOR AN
ORDER TO TAKE DISCOVERY PURSUANT
TO 28 U.S.C. § 1782
State of Illinois
)
			)
County of Cook
)

ss:

Richard H. Donohue, being first duly sworn, deposes
and says:
1. I am an attorney representing SERVOTRONICS
in this matter, and submit this Affidavit in support of
SERVOTRONICS, INC.’s Application for an Order to
Take Discovery Pursuant to 28 U.S.C. § 1782.

26a
Appendix D
2. Attached as Exhibit “A” hereto is a copy of the
Subpoena Duces Tecum and its attached Requests
for Documents and Other Materials referenced in the
Application papers and which SERVOTRONICS is
seeking leave to serve upon The Boeing Company.
3. There is good cause for submitting the Application
ex parte. Ex parte submissions are typical for applications
under 28 U.S.C. 1782. See, e.g., In re IKB Deutsche
Industriebank AG, 2010 WL 1526070 (N.D. Ill.) If the
Court grants the Application, and Boeing, the party from
whom discovery is sought, objects to the Subpoena served
upon it in whole or part, it may move to quash under Fed.
R. Civ. P. 45(c) and make any other objections available
under discovery rules. See 28 U.S.C. § 1782 (unless the
court prescribes otherwise, “the document or other thing
[shall be] produced in accordance with the Federal Rules
of Civil Procedure,” and no production will be compelled
in violation of a legal privilege).
4. As an alternative, the Court may issue an Order to
Show Cause why the Application would not be granted,
as in Gushlak v. Gushlak, 486 Fed. App’x 215, 2012 WL
2549813 (2d Cir.) (“it is neither uncommon nor improper
for district courts to grant applications made pursuant to
28 U.S.C. § 1782 ex parte,” and the court’s decision to issue
Order to Show Cause provided respondent with “more
relief than is customary in a § 1782 proceeding”); see also
In re Chevron Corp., 753 F. Supp. 2d 536 (D. Md. 2010)
(also commenced ex parte with request for Order to Show
Cause as alternative relief). While this “extra step” might
enhance efficiency when the Applicant is seeking to serve

27a
Appendix D
subpoenas on multiple respondents, it seems unnecessary
when leave is sought to serve a single subpoena on a single
respondent who may make the same arguments under
Fed. R. Civ. P. 45 and other discovery rules.
5. No application for similar relief has previously been
made and, as confirmed in the Declaration of QC Akhil Shah
submitted concurrently, no judicial or arbitral authority
in the U.K. has rejected any effort by Applicant to obtain
the requested documents and other materials. Applicant
intends to serve Subpoenas Testificandum in the District
Court of South Carolina court to compel the testimony
of witnesses to the underlying events (an aircraft engine
fire that occurred during pre-delivery tests conducted
by Boeing and Rolls-Royce in North Charleston, South
Carolina on 16 January 2016). The Subpoena attached
hereto seeks the production of documents from Boeing
in this District where its international headquarters are
located.
AFFIANT FURTHER SAYETH NAUGHT
/s/
Richard H. Donohue
(ARDC #3124238)
Sworn to before me on this
26th day of October, 2018
/s/				
Notary Public
UNITED STATES DISTRICT COURT
for the

28a
Appendix D
Northern District of Illinois
Civil Action No. 18-cv-7181
IN RE: SERVOTRONICS,
Plaintiff,
v.

Defendant
SUBPOENA TO PRODUCE DOCUMENTS,
INFORMATION, OR OBJECTS OR TO PERMIT
INSPECTION OF PREMISES IN A CIVIL ACTION
To: The Boeing Company, 100 North Riverside, Chicago,
IL 60606
 Production: YOU ARE COMMANDED to produce
at the time, date, and place set forth below the following
documents, electronically stored information, or objects,
and permit their inspection, copying, testing, or sampling
of the material: Any and all documents and materials
identified in Attachment A.
Place: 140 S. Dearborn,
Suite 800, Chicago IL
60603

Date and Time:
11/23/2018 12:45 pm

29a
Appendix D
 Inspection of Premises: YOU ARE COMMANDED
to permit entry onto the designated premises, land, or
other property possessed or controlled by you at the time,
date, and location set forth below, so that the requesting
party may inspect, measure, survey, photograph, test, or
sample the property or any designated object or operation
on it.
Place:

Date and Time:

The provisions of Fed. R. Civ. P. 45(c), relating to your
protection as a person subject to a subpoena, and Rule
45 (d) and (e), relating to your duty to respond to this
subpoena and the potential consequences of not doing so,
are attached.
Date: 10/26/2018
CLERK OF COURT
			
OR
Signature of Clerk 			
or Deputy Clerk

/s/			
Attorney’s Signature

The name, address, e-mail, and telephone number of the
attorney representing (name of party) Servotronics, who
issues or requests this subpoena, are: Michael H. Adler,
140 S. Dearborn, Suite 800, Chicago, IL 60603, adler@
dbmslaw.com, 312-422-4902

30a
Appendix D
PROOF OF SERVICE
(This section should not be filed with the court
unless required by Fed. R. Civ. P. 45.)
This subpoena for (name of individual and title, if any)
		 was received by me on (date) 		
I served the subpoena by delivering a copy to the
named person as follows: 				
								
			
on (dated) 			
; or
 I returned the subpoena unexecuted
because: 						
							,
Unless the subpoena was issued on behalf of the
United States, or one of its officers or agents, I
have also tendered to the witness fees for one
day’s attendance, and the mileage allowed by
law, in the amount of
$ 			
My fees are $ 		 for travel and $ 		
for services, for a total of $ 0.00
I declare under penalty of perjury that this information
is true.

31a
Appendix D
Date: 			
				
				Server’s Signature
								
				Printed name and title
								
				Server’s address
Additional information regarding attempted service, etc:

32a
Appendix D
Federal Rule of Civil Procedure 45 (c), (d), and (e)
(Effective 12/1/07)
(c) Protecting a Person Subject to a Subpoena.
(1) Avoiding Undue Burden or Expense, Sanctions. A
party or attorney responsible for issuing and serving a
subpoena must take reasonable steps to avoid imposing
undue burden or expense on a person subject to the
subpoena. The issuing court must enforce this duty and
impose an appropriate sanction— which may include lost
earnings and reasonable attorney’s fees— on a party or
attorney who fails to comply.
(2) Command to Produce Materials or Permit
Inspection.
(A) Appearance Not Required. A person commanded
to produce documents, electronically stored information,
or tangible things, or to permit the inspection of premises,
need not appear in person at the place of production
or inspection unless also commanded to appear for a
deposition, hearing, or trial.
(B) Objections. A person commanded to produce
documents or tangible things or to permit inspection may
serve on the party or attorney designated in the subpoena
a written objection to inspecting, copying, testing or
sampling any or all of the materials or to inspecting
the premises — or to producing electronically stored
information in the form or forms requested. The objection
must be served before the earlier of the time specified for

33a
Appendix D
compliance or 14 days after the subpoena is served. If an
objection is made, the following rules apply:
(i) At any time, on notice to the commanded person,
the serving party may move the issuing court for an order
compelling production or inspection.
(ii) These acts may be required only as directed
in the order, and the order must protect a person who
is neither a party nor a party’s officer from significant
expense resulting from compliance.
(3) Quashing or Modifying a Subpoena.
(A) When Required. On timely motion, the issuing
court must quash or modify a subpoena that:
(i) fails to allow a reasonable time to comply;
(ii) requires a person who is neither a party nor a
party’s officer to travel more than 100 miles from where
that person resides, is employed, or regularly transacts
business in person— except that, subject to Rule 45(c)(3)
(B)(iii); the person may be commanded to attend a trial
by traveling from any such place within the state where
the trial is held;
(iii) requires disclosure of privileged or other
protected matter, if no exception or waiver applies; or
(iv) subjects a person to undue burden.

34a
Appendix D
(B) When Permitted. To protect a person subject to or
affected by a subpoena, the issuing court may, on motion,
quash or modify the subpoena if it requires:
(i) disclosing a trade secret or other confidential
research, development, or commercial information;
(ii) disclosing an unretained expert’s opinion or
information that does not describe specific occurrences
in dispute and results from the expert’s study that was
not requested by a party; or
(iii) a person who is neither a party nor a party’s
officer to incur substantial expense to travel more than
100 miles to attend trial.
(C) Specifying Conditions as an Alternative. In the
circumstances described in Rule 45(c)(3)(B), the court
may, instead of quashing or modifying a subpoena, order
appearance or production under specified conditions if
the serving party:
(i) shows a substantial need for the testimony or
material that cannot be otherwise met without undue
hardship; and
(ii) ensures that the subpoenaed person will be
reasonably compensated.

35a
Appendix D
(d) Duties in Responding to a Subpoena.
(1) Producing Documents or Electronically Stored
Information. These procedures apply to producing
documents or electronically stored information:
(A) Documents. A person responding to a subpoena to
produce documents must produce them as they are kept
in the ordinary course of business or must organize and
label them to correspond to the categories in the demand.
(B) Form for Producing Electronically Stored
Information Not Specified. If a subpoena does not specify
a form for producing electronically stored information, the
person responding must produce it in a form or forms in
which it is ordinarily maintained or in a reasonably usable
form or forms.
(C) Electronically Stored Information Produced in
Only One Form. The person responding need not produce
the same electronically stored information in more than
one form.
(D) Inaccessible Electronically Stored Information.
The person responding need not provide discovery of
electronically stored information from sources that the
person identifies as not reasonably accessible because of
undue burden or cost. On motion to compel discovery or
for a protective order, the person responding must show
that the information is not reasonably accessible because
of undue burden or cost. If that showing is made, the
court may nonetheless order discovery from such sources

36a
Appendix D
if the requesting party shows good cause, considering
the limitations of Rule 26(b)(2)(C). The court may specify
conditions for the discovery.
(2) Claiming Privilege or Protection.
(A) Information Withheld. A person withholding
subpoenaed information under a claim that it is privileged
or subject to protection as trial-preparation material must:
(i) expressly make the claim; and
(ii) describe the nature of the withheld documents,
communications, or tangible things in a manner that,
without revealing information itself privileged or
protected, will enable the parties to assess the claim.
(B) Information Produced. If information produced in
response to a subpoena is subject to a claim of privilege
or of protection as trial-preparation material, the person
making the claim may notify any party that received
the information of the claim and the basis for it. After
being notified, a party must promptly return, sequester,
or destroy the specified information and any copies it
has; must not use or disclose the information until the
claim is resolved; must take reasonable steps to retrieve
the information if the party disclosed it before being
notified; and may promptly present the information to
the court under seal for a determination of the claim. The
person who produced the information must preserve the
information until the claim is resolved.

37a
Appendix D
(e) Contempt. The issuing court may hold in contempt a
person who, having been served, fails without adequate
excuse to obey the subpoena. A nonparty’s failure to obey
must be excused if the subpoena purports to require the
nonparty to attend or produce at a place outside the limits
of Rule 45(c)(3)(A)(ii).
ATTACHMENT “A” TO SUBPOENA
These definitions apply to the terms used in the
numbered requests below:
“Aircraft” refers to the Boeing 787-9 Dreamliner
aircraft, individually identified as S/N ZB036 and United
Kingdom Civil Aviation Authority Registration Number
(“R/N”) R/N G-VDIA, that was damaged in the Event.
“Event” refers to the engine tailpipe fire that occurred
on Boeing facilities on 16 January 2016 at the North
Charleston International Airport.
“Engine” refers to the Rolls-Royce Trent 1000 engine
individually identified as S/N 10353 that was installed on
the right side of the Aircraft at the time of the Event.
“Boeing” refers to The Boeing Company and any
and all of its subsidiaries, and their respective directors,
officers, employees, contractors, agents, and other
representatives, who participated in or were present
during the Aircraft and Engine Demonstration tests on
the day of the Event, and investigations or other activities
related to the Event thereafter.

38a
Appendix D
“Documents and materials” includes electronically
stored information, described below, and also includes any
paper or other writing and any item of graphic materials,
however recorded or reproduced, including but not
limited to all drafts, copies or other preliminary material
which are different from the executed or final document,
regardless of whether designated “conf idential,”
“privileged,” or otherwise restricted, wherever located,
whether an original or a copy, including but not limited
to agreements, contracts, financial statements, account
statements, invoices, purchase orders, reports, minutes,
confirmations, analyses, plans, manuals, policies,
worksheets, work papers, notices and summaries, papers,
files and any other written records or recordings of any
conferences, meetings, visits, interviews, press releases or
telephone conversations, transcriptions of conversations or
communications or meetings, financial and statistical data,
analyses, surveys, transcripts of testimony, statements,
interviews, affidavits, press releases, memoranda, drafts,
memo pads, notes, indices, tabulations, graphs, reports,
papers, records, inter-office communications, electronic
data processing charts, tapes, print-outs, papers or
other recordings, tables, compilations, catalogs, faxes,
telephone logs, telephone messages, message slips, letters,
correspondence, photographs, diaries, calendars, date
books, appointment books, drawings, data reports, printed
matter, correspondence, communications received and/
or sent, books, records, journals, registers, brochures,
advertisements, circulars, mailings and publications; and
any copy containing thereon or having attached thereto
any alterations, notes, or comments.

39a
Appendix D
“ D o c u m e nt s a n d m a t e r i a l s ” a l s o i n c l u d e s
“Electronically Stored Information (ESI),” stored in any
type of digital medium, from which it can be retrieved and
examined, regardless of whether it is in the original format
in which it was created. ESI may include, but is not limited
to, digital communications (e.g., e-mail, voice mail, instant
messaging, social media); word processing documents
(e.g., Word documents and drafts); spreadsheets and
tables (e.g., Excel or Lotus 123 worksheets); accounting
application data (e.g., QuickBooks, Money, Peachtree
data files); image and facsimile files (e.g., .PDF, .TIFF,
.JPG, .GIF images); sound recordings (e.g., .WAV and
.MP3 files); video and animation (e.g., .AVI and .MOV
files); databases (e.g., Access, Oracle, SQL Server data,
SAP); contact and relationship management data (e.g.,
Outlook, ACT!); calendar and diary application data (e.g.,
Outlook PST, Yahoo, blog tools); online access data (e.g.,
temporary internet files, history, cookies); presentations
(e.g., PowerPoint); network access and server activity logs;
project management application data; Computer Aided
Design/Drawing files; and, backup and archival files (e.g.,
Zip, .GHO, .PST).
“Communications” refers to any use of any mode
of conveying meaning and information such as, but not
limited to, telephone, computer generated or transmitted,
written or spoken language for the purpose of transferring
information from one person or place to another.
Communication shall include, without limitation, notes,
memoranda, or any other documents memorializing the
information or meaning conveyed.

40a
Appendix D
The words “or” and “and” shall be read in the
conjunctive and not in the disjunctive wherever they
appear, and neither of these words shall be interpreted
to limit the scope of a request. The use of a verb in any
tense shall be construed as the use of the verb in all other
tenses and the singular form shall be deemed to include
the plural, and vice-versa. The singular form of any noun
shall be deemed to include the plural, and vice-versa.
Through this Application, Servotronics requests the
following documents and other materials from Boeing:
I.

Document Production
1.

A full and complete copy of the Aircraft Purchase
Agreement.

2.

A full and complete copy of the Aircraft Delivery
Documents.

3.

Engine Delivery Documents.

4.

A copy of the recorded audio of the Event,
including the timeframe leading up to the Event
and the time prior to when the Start selection
was made (i.e., the CVR recording and any other
recordings of communications, including for
Aircraft Flights C1 and C2).

5.

A copy of the “Surveillance Video” of the Event.

6.

A copy of all witness statements to the Event not
previously provided in legible form.

41a
Appendix D
7.

A copy of all completed witness to the Event
questionnaires not previously provided in legible
form.

8.

A copy of all interview notes for all witnesses to
the Event not previously provided.

9.

All Maintenance Messages for the Aircraft from
the date the Engine was first installed on the
Aircraft up to and including the Event, including
the Continuous Parameters Logging (CPL)/
Enhanced Airborne Flight Recorder (EAFR)
data.

10. A complete copy of the Boeing South Carolina
Incident Review Board Report (not the Executive
Summary).
11. All Boeing support documents associated with the
completion of their “Summary of Investigation”,
and their “Timeline”.
12. Boeing Aircraft Manuals, including the Fault
Isolation Manual, that explain the operation,
maintenance, servicing and trouble-shooting of
the Engine for the B787.
13. All Paperwork, including Aircraft and Engine
Logs and Squawk sheets, associated with the
“Wetted HMU” that was discovered following a
dry engine run prior to Flight C1.

42a
Appendix D
14. All Paperwork, including Aircraft and Engine
Logs and Squawk sheets related to Aircraft
Flight C1.
15. All Paperwork associated with Engine Runs, or
attempted Engine Runs, conducted in the early
morning hours of 16 January 2016— prior to the
attempted Flight C2.
16. All Paperwork, including Aircraft and Engine
Logs and Squawk sheets related to Aircraft
Flight C2.
17. A full and complete copy of the Command
Narrative (Statement Prepared by the Boeing
Fire Fighting Department).
18. A full and complete copy of the Incident Report
by Boeing Security prepared after the Event.
19. All documents related to Boeing Investigation
Recommendations and actions or procedural
changes implemented at Boeing South Carolina,
including any supporting documentation, taken
by Boeing in regard to investigation findings.
20. A ll Releases, Subrogation Receipts, and
Settlement Agreements between Virgin Atlantic
Airways, Boeing and their respective insurers.
21. All documents and communications between
Boeing and Virgin Atlantic Airways relating to

43a
Appendix D
the Event, investigations of the Event, repair of
the Engine and Aircraft.
22. All documents relating to all money damages
Boeing was required to pay to VAA for Boeing’s
failure to meet any of Boeing’s obligations
contained in contracts with VAA as a result of the
Event; and including any other money damages,
costs and expenses incurred by Boeing as a result
of the delayed delivery of the Aircraft,
a.

Engineering Labor Costs

b.

Basic Factory Labor Costs

c.

Cost of Replacement Parts for the wing
repair

d.

Delivery Delay Payment by Boeing to VAA

e.

Buyout valuation of the Boeing warranty
extension to VAA

f.

Buyout valuation of the residual value
guarantee that Boeing provided to VAA.

44a
Appendix
E MOTION of the
Appendix E — NOTICE
OF
united states DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ILLINOIS, EASTERN
DIVISION, FILED NOVEMBER 14, 2018
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
No. 18-cv-7187
IN RE:
Application of SERVOTRONICS, INC.,
for an Order Pursuant to 28 U.S.C.
Section 1782 to Take Discovery for
Use in a Foreign Proceeding.
Judge Elaine E. Bucklo
NOTICE OF MOTION
PLEASE TAKE NOTICE that on November 28,
2018, at 9:30 a.m., or as soon thereafter as counsel may be
heard, we shall appear before the Honorable Judge Elaine
E. Bucklo, or any Judge sitting in that Judge’s place or
stead, in the courtroom usually occupied by her, located
at United States District Court, Northern District of
Illinois, United States Courthouse, 219 S. Dearborn Street
Room 2243, Chicago, IL 60604, and present Ex Parte
Application of Servotronics for An Order Pursuant to
28 U.S.C. Section 1782 to take Discovery for use in a
foreign Proceeding, a copy of which is attached hereto.

45a
Appendix E
DONOHUE BROWN MATHEWSON & SMYTH LLC
Richard H. Donohue ARDC #3124238
Michael H. Adler ARDC #6320198
140 South Dearborn Street, Suite 800
Chicago, IL 60603
(312) 422-0900
service@dbmslaw.com
donohue@dbmslaw.com
adler@dbmslaw.com
PROOF OF SERVICE
I hereby certify that on November 14, 2018, I
electronically served this notice and the above-mentioned
document either through the court electronic filing
manager or an approved electronic filing service provider,
if available. For all parties for which such service is not
available, I served this notice and the above-mentioned
document by email to the email addresses listed below.
Under penalties as provided by law pursuant to
Section 1-109 of the Illinois Code of Civil Procedure, I
certify that the statements set forth in this instrument
are true and correct.
/s/Irene Velez		
Irene Velez

46a
Appendix F
Appendix F — notification
of docket
entry of the united states district
court for the northern district of
illinois, eastern division,
filed november 19, 2018
UNITED STATES DISTRICT COURT FOR THE
Northern District of Illinois
Eastern Division
Case No.: 1:18−cv−07187
Servotronics, Inc.
Plaintiff,
v.
Defendant.
Honorable Elaine E. Bucklo
NOTIFICATION OF DOCKET ENTRY
This docket entry was made by the Clerk on Monday,
November 19, 2018:
MINUTE entry before the Honorable Elaine E.
Bucklo: Ex Parte Application of Servotronics for an Order
pursuant to 28 U.S.C. Section 1782 to take Discovery for
use in a foreign Pleading [3]is granted. No appearance
required on 11/28/2018. Mailed notice. (mgh, )

47a
Appendix F
ATTENTION: This notice is being sent pursuant to Rule
77(d) of the Federal Rules of Civil Procedure or Rule
49(c) of the Federal Rules of Criminal Procedure. It was
generated by CM/ECF, the automated docketing system
used to maintain the civil and criminal dockets of this
District. If a minute order or other document is enclosed,
please refer to it for additional information.
For scheduled events, motion practices, recent opinions
and other information, visit our web site at www.ilnd.
uscourts.gov.

48a
Appendix G TO THE UNITED
APPENDIX G — SUBPOENA
STATES DISTRICT COURT FOR THE NORTHERN
DISTRICT OF ILLINOIS, FILED
NOVEMBER 20, 2018
UNITED STATES DISTRICT COURT
FOR THE
NORTHERN DISTRICT OF ILLINOIS
Civil Action No. 18-cv-7187
IN RE: SERVOTRONICS,
Plaintiff,
v.

Defendant
SUBPOENA TO PRODUCE DOCUMENTS,
INFORMATION, OR OBJECTS OR TO PERMIT
INSPECTION OF PREMISES IN A CIVIL ACTION
To: The Boeing Company, 100 North Riverside, Chicago,
IL 60606
 Production: YOU ARE COMMANDED to produce
at the time, date, and place set forth below the following
documents, electronically stored information, or objects,
and permit their inspection, copying, testing, or sampling
of the material: Any and all documents and materials
identified in Attachment A.

49a
Appendix G
Place: 140 S. Dearborn,
Suite 800, Chicago IL
60603

Date and Time:
12/10/2018 1:00 pm

 Inspection of Premises: YOU ARE COMMANDED
to permit entry onto the designated premises, land, or other
property possessed or controlled by you at the time, date,
and location set forth below, so that the requesting party
may inspect, measure, survey, photograph, test, or sample
the property or any designated object or operation on it.
Place:

Date and Time:

The provisions of Fed. R. Civ. P. 45(c), relating to your
protection as a person subject to a subpoena, and Rule 45
(d) and (e), relating to your duty to respond to this subpoena
and the potential consequences of not doing so, are attached.
Date: 11/20/2018
CLERK OF COURT
			
OR
Signature of Clerk 			
or Deputy Clerk

/s/ Richard H. Donohue
Attorney’s Signature

The name, address, e-mail, and telephone number of
the attorney representing (name of party) Servotronics,
who issues or requests this subpoena, are: Richard H.
Donohue, 140 S. Dearborn, Suite 800, Chicago, IL 60603,
donohue@dbmslaw.com, 312-422-0904

50a
Appendix G
PROOF OF SERVICE
(This section should not be filed with the court
unless required by Fed. R. Civ. P. 45.)
This subpoena for (name of individual and title,
if any) 				 was received by me on
(dated) 		 .
 I served the subpoena by delivering a copy
to the named person as follows: 		
							 on
(dated) 			
; or
 I returned the subpoena unexecuted because:
								
							.
Unless the subpoena was issued on behalf of the
United States, or one of its officers or agents, I
have also tendered to the witness fees for one
day’s attendance, and the mileage allowed by
law, in the amount of $ 			 .
My fees are $ 		 for travel and $ 			
for services, for a total of $
0.0
.
I declare under penalty of perjury that this information
is true.

51a
Appendix G
Date: 			
				
					Server’s signature
								
					Printed name and title
								
					Server’s address
Additional information regarding attempted service, etc:

52a
Appendix G
Federal Rule of Civil Procedure 45 (c), (d), and (e)
(Effective 12/1/07)
(c) Protecting a Person Subject to a Subpoena.
(1) Avoiding Undue Burden or Expense; Sanctions. A
party or attorney responsible for issuing and serving a
subpoena must take reasonable steps to avoid imposing
undue burden or expense on a person subject to the
subpoena. The issuing court must enforce this duty and
impose an appropriate sanction — which may include lost
earnings and reasonable attorney’s fees — on a party or
attorney who fails to comply.
(2) Command to Produce Materials or Permit
Inspection.
(A) Appearance Not Required. A person commanded
to produce documents, electronically stored information,
or tangible things, or to permit the inspection of premises,
need not appear in person at the place of production
or inspection unless also commanded to appear for a
deposition, hearing, or trial.
(B) Objections. A person commanded to produce
documents or tangible things or to permit inspection may
serve on the party or attorney designated in the subpoena
a written objection to inspecting, copying, testing or
sampling any or all of the materials or to inspecting
the premises — or to producing electronically stored
information in the form or forms requested. The objection
must be served before the earlier of the time specified for

53a
Appendix G
compliance or 14 days after the subpoena is served. If an
objection is made, the following rules apply:
(i) At any time, on notice to the commanded person,
the serving party may move the issuing court for an order
compelling production or inspection.
(ii) These acts may be required only as directed
in the order, and the order must protect a person who
is neither a party nor a party’s officer from significant
expense resulting from compliance.
(3) Quashing or Modifying a Subpoena.
(A) When Required. On timely motion, the issuing
court must quash or modify a subpoena that:
(i) fails to allow a reasonable time to comply;
(ii) requires a person who is neither a party nor a
party’s officer to travel more than 100 miles from where
that person resides, is employed, or regularly transacts
business in person — except that, subject to Rule 45(c)(3)
(B)(iii), the person may be commanded to attend a trial
by traveling from any such place within the state where
the trial is held;
(iii) requires disclosure of privileged or other
protected matter, if no exception or waiver applies; or
(iv) subjects a person to undue burden.

54a
Appendix G
(B) When Permitted. To protect a person subject to or
affected by a subpoena, the issuing court may, on motion,
quash or modify the subpoena if it requires:
(i) disclosing a trade secret or other confidential
research, development, or commercial information;
(ii) disclosing an unretained expert’s opinion or
information that does not describe specific occurrences
in dispute and results from the expert’s study that was
not requested by a party; or
(iii) a person who is neither a party nor a party’s
officer to incur substantial expense to travel more than
100 miles to attend trial.
(C) Specifying Conditions as an Alternative. In the
circumstances described in Rule 45(c)(3)(B), the court
may, instead of quashing or modifying a subpoena, order
appearance or production under specified conditions if
the serving party:
(i) shows a substantial need for the testimony or
material that cannot be otherwise met without undue
hardship; and
(ii) ensures that the subpoenaed person will be
reasonably compensated.

55a
Appendix G
(d) Duties in Responding to a Subpoena.
(1) Producing Documents or Electronically Stored
Information. These procedures apply to producing
documents or electronically stored information:
(A) Documents. A person responding to a subpoena to
produce documents must produce them as they are kept
in the ordinary course of business or must organize and
label them to correspond to the categories in the demand.
(B) Form for Producing Electronically Stored
Information Not Specified. If a subpoena does not specify
a form for producing electronically stored information, the
person responding must produce it in a form or forms in
which it is ordinarily maintained or in a reasonably usable
form or forms.
(C) Electronically Stored Information Produced in
Only One Form. The person responding need not produce
the same electronically stored information in more than
one form.
(D) Inaccessible Electronically Stored Information.
The person responding need not provide discovery of
electronically stored information from sources that the
person identifies as not reasonably accessible because of
undue burden or cost. On motion to compel discovery or
for a protective order, the person responding must show
that the information is not reasonably accessible because
of undue burden or cost. If that showing is made, the
court may nonetheless order discovery from such sources

56a
Appendix G
if the requesting party shows good cause, considering
the limitations of Rule 26(b)(2)(C). The court may specify
conditions for the discovery.
(2) Claiming Privilege or Protection.
(A) Information Withheld. A person withholding
subpoenaed information under a claim that it is privileged
or subject to protection as trial-preparation material must:
(i) expressly make the claim; and
(ii) describe the nature of the withheld documents,
communications, or tangible things in a manner that,
without revealing information itself privileged or
protected, will enable the parties to assess the claim.
(B) Information Produced. If information produced
in response to a subpoena is subject to a claim of privilege
or of protection as trial-preparation material, the person
making the claim may notify any party that received
the information of the claim and the basis for it. After
being notified, a party must promptly return, sequester,
or destroy the specified information and any copies it
has; must not use or disclose the information until the
claim is resolved; must take reasonable steps to retrieve
the information if the party disclosed it before being
notified; and may promptly present the information to
the court under seal for a determination of the claim. The
person who produced the information must preserve the
information until the claim is resolved.

57a
Appendix G
(e) Contempt. The issuing court may hold in contempt a
person who, having been served, fails without adequate
excuse to obey the subpoena. A nonparty’s failure to obey
must be excused if the subpoena purports to require the
nonparty to attend or produce at a place outside the limits
of Rule 45(c)(3)(A)(ii).

58a
Appendix G
ATTACHMENT “A” TO SUUPOENA
These definitions apply to the terms used in the numbered
requests below:
“Aircraft” refers to the Boeing 787-9 Dreamliner
aircraft, individually identified as S/N ZB036 and United
Kingdom Civil Aviation Authority Registration Number
(“R/N”) R/N G-VDIA, that was damaged in the Event.
“Event” refers to the engine tailpipe fire that occurred
on Boeing facilities on 16 January 2016 at the North
Charleston International Airport.
“Engine” refers to the Rolls-Royce Trent 1000 engine
individually identified as S/N 10353 that was installed on
the right side ofthe Aircraft at the time of the Event.
“Boeing” refers to The Boeing Company and any
and all of its subsidiaries, and their respective directors,
officers, employees, contractors, agents, and other
representatives, who participated in or were present
during the Aircraft and Engine Demonstration tests on
the day of the Event, and investigations or other activities
related to the Event thereafter.
“Documents and materials” includes electronically
stored information, described below, and also includes any
paper or other writing and any item of graphic materials,
however recorded or reproduced, including but not
limited to all drafts, copies or other preliminary material
which are different from the executed or final document,

59a
Appendix G
regardless of whether designated “conf idential,”
“privileged,” or otherwise restricted, wherever located,
whether an original or a copy, including but not limited
to agreements, contracts, financial statements, account
statements, invoices, purchase orders, reports, minutes,
confirmations, analyses, plans, manuals, policies,
worksheets, work papers, notices and summaries, papers,
files and any other written records or recordings of any
conferences, meetings, visits, interviews, press releases or
telephone conversations, transcriptions of conversations or
communications or meetings, financial and statistical data,
analyses, surveys, transcripts of testimony, statements,
interviews, affidavits, press releases, memoranda, drafts,
memo pads, notes, indices, tabulations, graphs, reports,
papers, records, inter-office communications, electronic
data processing charts, tapes, print-outs, papers or
other recordings, tables, compilations, catalogs, faxes,
telephone logs, telephone messages, message slips, letters,
correspondence, photographs, diaries, calendars, date
books, appointment books, drawings, data reports, printed
matter, correspondence, communications received and/
or sent, books, records, journals, registers, brochures,
advertisements, circulars, mailings and publications; and
any copy containing thereon or having attached thereto
any alterations, notes, or comments.
“ D o c u m e nt s a n d m a t e r i a l s ” a l s o i n c l u d e s
“Electronically Stored Information (ESI),” stored in any
type of digital medium, from which it can be retrieved and
examined, regardless of whether it is in the original format
in which it was created. ESI may include, but is not limited
to, digital communications (e.g., e-mail, voice mail, instant

60a
Appendix G
messaging, social media); word processing documents
(e.g., Word documents and drafts); spreadsheets and
tables (e.g., Excel or Lotus 123 worksheets); accounting
application data (e.g., QuickBooks, Money, Peachtree
data files); image and facsimile files (e.g., .PDF, .TIFF,
.JPG, .GIF images); sound recordings (e.g., .WAV and
.MP3 files); video and animation (e.g., .AVI and .MOV
files); databases (e.g., Access, Oracle, SQL Server data,
SAP); contact and relationship management data (e.g.,
Outlook, ACT!); calendar and diary application data (e.g.,
Outlook PST, Yahoo, blog tools); online access data (e.g.,
temporary internet files, history, cookies); presentations
(e.g., PowerPoint); network access and server activity logs;
project management application data; Computer Aided
Design/Drawing files; and, backup and archival files (e.g.,
Zip, .GHO, .PST).
“Communications” refers to any use of any mode
of conveying meaning and information such as, but not
limited to, telephone, computer generated or transmitted,
written or spoken language for the purpose of transferring
information from one person or place to another.
Communication shall include, without limitation, notes,
memoranda, or any other documents memorializing the
information or meaning conveyed.
The words “or” and “and” shall be read in the
conjunctive and not in the disjunctive wherever they
appear, and neither of these words shall be interpreted
to limit the scope of a request. The use of a verb in any
tense shall be construed as the use of the verb in all other
tenses and the singular form shall be deemed to include

61a
Appendix G
the plural, and vice-versa. The singular form of any noun
shall be deemed to include the plural, and vice-versa.
Through this Application, Servotronics requests the
following documents and other materials from Boeing:
I.

Document Production

1.

A full and complete copy of the Aircraft Purchase
Agreement.

2.

A full and complete copy of the Aircraft Delivery
Documents.

3.

Engine Delivery Documents.

4.

A copy of the recorded audio of the Event, including
the timeframe leading up to the Event and the time
prior to when the Start selection was made (i.e.,
the CVR recording and any other recordings of
communications, including for Aircraft Flights C1
and C2).

5.

A copy of the “Surveillance Video” of the Event.

6.

A copy of all witness statements to the Event not
previously provided in legible form.

7.

A copy of all completed w itness to the Event
questionnaires not previously provided in legible
form.

62a
Appendix G
8.

A copy of all interview notes for all witnesses to the
Event not previously provided.

9.

All Maintenance Messages for the Aircraft from the
date the Engine was first installed on the Aircraft up
to and including the Event, including the Continuous
Parameters Logging (CPL)/Enhanced Airborne
Flight Recorder (EAFR) data.

10. A complete copy of the Boeing South Carolina Incident
Review Board Report (not the Executive Summary).
11. All Boeing support documents associated with the
completion of their “Summary of Investigation”, and
their “Timeline”.
12. Boeing Aircraft Manuals, including the Fault Isolation
Manual, that explain the operation, maintenance,
servicing and trouble-shooting of the Engine for the
B787.
13. All Paperwork, including Aircraft and Engine Logs
and Squawk sheets, associated with the “Wetted
HMU” that was discovered following a dry engine
run prior to Flight C1.
14. All Paperwork, including Aircraft and Engine Logs
and Squawk sheets related to Aircraft Flight C1.
15. All Paperwork associated with Engine Runs, or
attempted Engine Runs, conducted in the early
morning hours of 16 January 2016 – prior to the
attempted Flight C2.

63a
Appendix G
16. All Paperwork, including Aircraft and Engine Logs
and Squawk sheets related to Aircraft Flight C2.
17. A full and complete copy of the Command Narrative
(Statement Prepared by the Boeing Fire Fighting
Department).
18. A full and complete copy of the Incident Report by
Boeing Security prepared after the Event.
19. All documents related to Boeing Investigation
Recommendations and actions or procedural changes
implemented at Boeing South Carolina, including any
supporting documentation, taken by Boeing in regard
to investigation findings.
20. All Releases, Subrogation Receipts, and Settlement
Agreements between Virgin Atlantic Airways, Boeing
and their respective insurers.
21. All documents and communications between Boeing
and Virgin Atlantic Airways relating to the Event,
investigations of the Event, repair of the Engine and
Aircraft.
22. All documents relating to all money damages Boeing
was required to pay to VAA for Boeing’s failure to
meet any of Boeing’s obligations contained in contracts
with VAA as a result of the Event; and including any
other money damages, costs and expenses incurred
by Boeing as a result of the delayed delivery of the
Aircraft.

64a
Appendix G
a.
b.
c.
d.
e.
f.

Engineering Labor Costs
Basic Factory Labor Costs
Cost of Replacement Parts for the wing repair
Delivery Delay Payment by Boeing to VAA
Buyout valuation of the Boeing war ranty
extension to VAA
Buyout valuation of the residual value guarantee
that Boeing provided to VAA.

65a
Appendix H —Appendix
motionHto vacate the
order of the united states district
court for the northern district of
illinois, eastern division,
filed november 27, 2018
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
Case No. 18-cv-07187
In re:
Application of SERVOTRONICS, INC., for
an Order Pursuant to 28 U.S.C. § 1782 to
Take Discovery for Use in a Foreign
Proceeding
Honorable Elaine E. Bucklo
INTERVENOR ROLLS-ROYCE PLC’S MOTION
TO VACATE THE COURT’S ORDER, QUASH
SUBPOENA, AND COMPEL ARBITRATION
Subject to, and without waiver of any rights, privileges
and defenses, Rolls-Royce PLC intervenes in this matter
and respectfully requests that the Court vacate its Order
of November 19, 2018 [ECF 11] granting Petitioner
Servotronics Inc.’s Ex Parte Application pursuant to 28
U.S.C.A. § 1782 (“§ 1782”), and that the Court quash the
subpoena Servotronics Inc. has caused to be issued and
served on The Boeing Company [ECF 12], or, alternatively,
that the Court compel the matter of non-party discovery
to arbitration before the arbitral panel to be constituted
under the Rules of the Chartered Institute of Arbitrators.

66a
Appendix H
In support of its Motion to Vacate the Court’s Order,
Quash the Subpoena, and Compel Arbitration, RollsRoyce PLC relies upon the points and authorities set forth
in its Memorandum of Law in Support of its Motion to
Vacate the Courts Order, Quash Subpoena, and Compel
Arbitration filed simultaneously with this Motion, and all
other pleadings on file with the Court.
WHEREFORE, for the foregoing reasons, RollsRoyce PLC respectfully requests that this Court vacate
its Order of November 19, 2018, quash the subpoena issued
to the Boeing Company, or, alternatively, that the Court
compel the matter of non-party discovery to arbitration
before the arbitral panel to be constituted under the Rules
Chartered Institute of Arbitrators.
Dated: November 27, 2018 Respectfully submitted,
/s/ Richard A. Walker		
Larry S. Kaplan – ARDC No. 1398717
Richard A. Walker – ARDC No. 6196947
Matthew J. Obiala – ARDC No. 6316991
K aplan, M assamillo & A ndrews, LLC
200 W. Madison Street, 16th Floor
Chicago, Illinois 60606
Tel: (312) 345-3000
Fax: (312) 345-3119
lkaplan@kmalawfirm.com
rwalker@kmalawfirm.com
mobiala@kmalawfirm.com
Attorneys for ROLLS-ROYCE PLC

67a
Appendix I
Appendix I — notification
of docket
entry of the united states district
court for the northern district of
illinois, eastern division,
filed april 22, 2019
UNITED STATES DISTRICT COURT
FOR THE Northern District of Illinois
Eastern Division
Case No.: 1:18−cv−07187
Servotronics, Inc.
Plaintiff,
v.
Defendant.
Honorable Elaine E. Bucklo
NOTIFICATION OF DOCKET ENTRY
This docket entry was made by the Clerk on Monday,
April 22, 2019:
MINUTE entry before the Honorable Elaine E.
Bucklo: Intervenor’s Rolls−Royce PLC’s motion to vacate
the November 19, 2018 courts’s order, and to quash the
subpoena served on Boeing is granted. Enter Order.
Mailed notice. (mgh, )

68a
Appendix I
ATTENTION: This notice is being sent pursuant to Rule
77(d) of the Federal Rules of Civil Procedure or Rule
49(c) of the Federal Rules of Criminal Procedure. It was
generated by CM/ECF, the automated docketing system
used to maintain the civil and criminal dockets of this
District. If a minute order or other document is enclosed,
please refer to it for additional information.
For scheduled events, motion practices, recent opinions
and other information, visit our web site at www.ilnd.
uscourts.gov.

69a
J the UNITED
Appendix J — Appendix
ORDER of
STATES DISTRICT COURT FOR THE NORTHERN
DISTRICT OF ILLINOIS, EASTERN DIVISION,
FILED APRIL 22, 2019
IN THE UNITED STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
No. 18-cv-7187
In re Application of SERVOTRONICS, INC.,
for an Order Pursuant to 28 U.S.C. § 1782
to Take Discovery for Use in a Foreign
Proceeding
April 22, 2019, Decided
April 22, 2019, Filed
ORDER
Servotronics, Inc. (“Servotronics”) initiated this
action by filing an ex parte application for discovery
assistance pursuant to 28 U.S.C. § 1782(a). In its
application, Servotronics sought an order allowing it to
serve a subpoena duces tecum upon the Boeing Company
(“Boeing”), a resident of this district, to obtain documents
for use in a private arbitration proceeding between
Servotronics and Rolls-Royce, PLC (“Rolls-Royce”)
pending in London, England (“London Arbitration”).
I granted the application, and Servotronics served its
subpoena on Boeing. Shortly thereafter Rolls-Royce
filed a motion to vacate the order granting Servotronics’s
application and to quash the subpoena, and Boeing filed
a response in support of Rolls-Royce’s motion. For the

70a
Appendix J
reasons that follow, I grant the motion, vacate my previous
order, and quash Servotronics’s subpoena on Boeing.
The parties’ underlying dispute arises from a fire
that occurred at Boeing’s facilities in Charleston, South
Carolina. During a ground engine test of a Boeing 787-9
aircraft, a stray piece of metal apparently got lodged in
the aircraft’s engine valve, affecting the flow of fuel to the
engine. Boeing’s employees began troubleshooting the
engine, and, at some point, the engine caught fire, causing
damage to the aircraft.
After the accident, Boeing sought compensation
from the engine manufacturer Rolls-Royce, and the
two companies reached a settlement. Rolls-Royce then
demanded indemnity from Servotronics, the manufacturer
of the engine valve that Rolls-Royce claims caused the
engine malfunction. Servotronics refused, and so RollsRoyce notified Servotronics that it intended to arbitrate
the dispute pursuant to an agreement existing between
them. According to their agreement, Rolls-Royce and
Servotronics must submit all disputes that are not resolved
by negotiation or mediation to private arbitration1 under
the rules of the Chartered Institute of Arbitrators
(“CIA rb”), which provide for “final and binding”
arbitration reviewable only for substantive jurisdictional
issues and “serious irregularities.” 2 Shah Decl. [6] ¶¶ 161. Although the agreement does not use the term “private
arbitration,” there is no dispute that private arbitration is what
it requires.
2. By adopting the CIArb Rules, parties “waive their right to
any form of appeal or recourse to a court or other judicial authority

71a
Appendix J
18. After Rolls-Royce sent Servotronics its arbitration
notice, the parties agreed to hold an arbitration hearing
in London, England. That hearing has not yet occurred.
In preparation for the London Arbitration, Servotronics
decided to seek discovery from non-party Boeing and its
employees in the United States. It filed an ex parte 28
U.S.C. § 1782 application here in the Northern District of
Illinois seeking documents from Boeing’s headquarters,
and it filed a separate ex parte application in the District
of South Carolina seeking to take depositions from three
of Boeing’s Charleston facility employees. The South
Carolina court denied Servotronics’s application on the
ground that 28 U.S.C. § 1782 does not reach private
arbitral forums, and Servotronics is appealing that
decision. I granted the application that was before me.
Rolls-Royce, with Boeing’s support, seeks to vacate
my order granting Servotronics’s application because it
asserts that I lacked authority under 28 U.S.C. § 1782 to
order discovery for use in a foreign private arbitration.
Servotronics disagrees of course, but it also argues that I
should not even reach the question of my § 1782 authority
now because (1) Rolls-Royce has not formally moved to
intervene in this case, and (2) Rolls-Royce lacks standing
insofar as such waiver is valid under the applicable law.” Shah Decl.
[6] Exh. A, Art. 34(2). Under the laws of England and Wales, which
govern the agreement between Rolls-Royce and Servotronics, id.
¶ 17, parties to an arbitration cannot waive the right to challenge
an award in court for lack of substantive jurisdiction or for serious
irregularities. Arbitration Act, 1996, c. 23, §§ 4, 67-68 & sch. 1.
However, parties can waive the right to appeal questions of law
arising out of an arbitration award. Id. § 69.

72a
Appendix J
to vacate the order and quash the subpoena since both
are directed at Boeing. Neither of these arguments is
persuasive.
First, although Servotronics is correct that RollsRoyce never filed a formal motion to intervene in this
matter (and neither did Boeing), this does not prevent
me from considering the motion to vacate and quash.
District courts vary on whether they require non-parties
affected by a § 1782 order to formally move to intervene
to challenge the order. Compare In re Kleimar N.V v.
Benxi Iron & Steel Am., Ltd., No. 17-CV-01287, 2017
WL 3386115, at *4 (N.D. Ill. Aug. 7, 2017) (permitting a
party served with a subpoena under § 1782 to challenge
the order without separately moving to intervene), and
In re Application of TJAC Waterloo, LLC, No. 3:16-MC9-CAN, 2016 WL 1700001, at *2 (N.D. Ind. Apr. 27, 2016)
(granting a motion to vacate a § 1782 order by opponent
in the underlying foreign proceeding without a formal
motion to intervene), with In re Ambercroft Trading Ltd.,
No. 18-MC-80074-KAW, 2018 WL 4773187, at *4 (N.D.
Cal. Oct. 3, 2018) (permitting challenge because party
filed a timely motion to intervene under Federal Rule
24(b)), and In re Hornbeam Corp., No. 14-MC-424, 2015
WL 13647606, at *3 (S.D.N.Y. Sept. 17, 2015) (same). And
in any case, motions that implicitly seek intervention in
a matter may be treated as motions brought under Rule
24. See United States v. Griffin, 782 F.2d 1393, 1399 (7th
Cir. 1986) (even when a motion is “not styled [as] one for
intervention ... a court is entitled to disregard labels and
treat pleadings for what they are”); Am. Nat. Bank &
Tr. Co. of Chicago v. Bailey, 750 F.2d 577, 582 (7th Cir.

73a
Appendix J
1984) (party’s failure to file a formal motion for leave to
intervene before it filed a counterclaim “not necessarily
[] fatal to its status as an intervenor”).
Second, as the opposing party in the pending London
Arbitration, Rolls-Royce has standing to request that
my § 1782 order be vacated. It is well-settled that a
party “against whom information obtained under section
1782 may be used, has standing to assert that, to his
detriment, the authority for which the section provides
is being abused.” In re Letter of Request from Crown
Prosecution Serv. of United Kingdom, 870 F.2d 686, 689
(D.C. Cir. 1989) (Ginsburg, J.); see also Application of
Sarrio, S.A., 119 F.3d 143, 148 (2d Cir. 1997) (“We have
recognized, though implicitly, that parties against whom
the requested information will be used may have standing
to challenge the lawfulness of discovery orders directed
to third parties.”). Because Servotronics intends to use
whatever discovery it obtains from Boeing against RollsRoyce in the London Arbitration, Rolls-Royce is entitled
to challenge the validity of the order to produce it.
The merits of Rolls-Royce’s motion require me
to consider the reach of 28 U.S.C. § 1782. Section
1782 “authorizes federal district courts to order the
production of evidentiary materials for use in foreign legal
proceedings, provided the materials are not privileged.”
McKevitt v. Pallasch, 339 F.3d 530, 531 (7th Cir. 2003).
The provision states:
The district court of the district in which a
person resides or is found may order him to

74a
Appendix J
give his testimony or statement or to produce a
document or other thing for use in a proceeding
in a foreign or international tribunal .... The
order may be made pursuant to a letter
rogatory issued, or request made, by a foreign
or international tribunal or upon the application
of any interested person and may direct that
the testimony or statement be given, or the
document or other thing be produced, before a
person appointed by the court....
28 U.S.C. § 1782(a). A federal court thus has authority
to order discovery pursuant to § 1782 when (1) a request
for discovery from a person residing in or found in the
court’s district (2) is made by a foreign tribunal or an
“interested person” (3) for use in “a proceeding in a
foreign or international tribunal.” Id. If these statutory
prerequisites are met, a district court may exercise its
discretion to grant a § 1782 application.
Rolls-Royce does not dispute that Servotronics’s
application met the first and second § 1782 requirements.
It contends, however, that Servotronics’s application
cannot satisfy the third requirement because the London
Arbitration for which Servotronics seeks discovery is a
private arbitral proceeding that does not qualify as a
“foreign or international tribunal” under the statute. I
agree.
As Rolls-Royce points out in its motion, I previously
addressed this question in In re Arbitration between
Norfolk S. Corp., Norfolk S. Ry. Co., & Gen. Sec. Ins.

75a
Appendix J
Co. & Ace Bermuda Ltd. (“Norfolk”), 626 F. Supp. 2d
882 (N.D. Ill. 2009). In Norfolk, I declined to order the
former counsel of a party involved in a private arbitration
in London to appear for a deposition in Chicago pursuant
to § 1782 because I concluded, based on § 1782’s text, its
legislative history, and relevant case law, that purely
private arbitrations were outside the scope of the statute.
Id. at 885-86. In reaching this conclusion, I considered
the Supreme Court’s decision in Intel Corp. v. Advanced
Micro Devices, Inc., 542 U.S. 241 (2004), where the
Court determined that an intergovernmental European
commission that enforced European competition laws
was within § 1782’s ambit. Although Intel did not involve
arbitration, the Court in that case favorably quoted a
definition of “tribunal” that included “arbitral tribunals.”
The Court did not explain whether this definition was
intended to include all arbitral bodies or just governmentsponsored ones. Nonetheless, because the Intel Court
“stopped short of declaring that any foreign body
exercising adjudicatory power falls within the purview
of the statute” and instead focused its analysis on the
public and quasi-judicial functions of the commission in
question and the ultimate reviewability3 of its decisions, I
interpreted the “reference to ‘arbitral bodies’ as including
state-sponsored arbitral bodies but excluding purely
private arbitrations.” Norfolk, 626 F. Supp. 2d at 885. That
3. In Norfolk, I obser ved that the parties’ arbitration
agreement, like the CIArb Rules here, waived the right to judicial
review of the merits of their dispute. 626 F. Supp. 2d at 886. This
limitation on reviewability stood in contrast to the reviewable
decisions of the intergovernmental commission at issue in Intel. See
524 U.S. at 255, 259.

76a
Appendix J
the Court made no mention of Second and Fifth Circuit
precedent expressly holding that § 1782 did not reach private
arbitrations added further support to this interpretation.
See National Broadcasting Co. v. Bear Stearns & Co.
(“NBC”), 165 F.3d 184, 189 (2d Cir. 1999) (holding that
the term “foreign or international tribunal” encompasses
governmental and intergovernmental adjudicatory bodies,
but not “arbitral bod[ies] established by private parties”);
Republic of Kazakhstan v. Biedermann International,
168 F.3d 880, 883 (5th Cir. 1999) (concluding that § 1782
“was not intended to authorize resort to United States
federal courts to assist discovery in private international
arbitrations”).
Since my decision in Norfolk, there have not been
any legal developments that would lead me to a different
conclusion about § 1782’s scope. In GEA Group AG v. FlexN-Gate Corp., 740 F.3d 411 (7th Cir. 2014), the Seventh
Circuit briefly pondered the question of § 1782’s reach
in dicta, noting that a private arbitration in Germany
might—or might not—qualify as a foreign tribunal
under § 1782. Id. at 419. But the Court did not resolve
the question, as the matter before it was not a § 1782
proceeding. The GEA panel did cite one circuit court case,
In re Consorcio Ecuatoriano de Telecomunicaciones
S.A. v. JAS Forwarding (USA), Inc. (“Consorcio I”), 685
F.3d 987 (11th Cir. 2012), which post-dated my decision in
Norfolk, for the proposition that a private arbitral forum
might be covered by § 1782. In Consorcio I, the Eleventh
Circuit broke with the Second and Fifth Circuits to
conclude that a private arbitral panel in Ecuador satisfied
§ 1782’s requirements. 685 F.3d at 996-98, 997 n.7. But the
Eleventh Circuit subsequently vacated and replaced that

77a
Appendix J
decision with an opinion resolving the dispute on different
grounds. See Application of Consorcio Ecuatoriano de
Telecomunicaciones S.A. v. JAS Forwarding (USA),
Inc. (“Consorcio II”), 747 F.3d 1262, 1270 n.4 (11th Cir.
2014) (vacating prior decision that concluded that private
arbitral forums were covered because that “substantial
question” was not clearly presented on the “sparse record”
before it). Thus, after Consorcio II, what remains, other
than the authorities that existed at the time of my decision
in Norfolk, is GEA’s acknowledgement that the question of
§ 1782’s scope is open in the Seventh Circuit. While district
courts have continued to answer the question differently,
including within this district, see, e.g., Kleimar, 2017 WL
3386115, at *5-6, the only two circuits that have directly
addressed § 1782’s applicability to private arbitration
proceedings hold that the statute does not so extend. NBC,
165 F.3d at 189; Biedermann, 168 F.3d at 883. Without
any intervening guidance from the Seventh Circuit or the
Supreme Court, my view therefore remains unchanged
from my opinion in Norfolk. Accordingly, I grant RollsRoyce’s motion [14] to vacate my November 19, 2018, order
[11] and to quash the resulting subpoena [12].4
ENTER ORDER:
/s/ Elaine E. Bucklo
Elaine E. Bucklo
United States District Judge
Dated: April 22, 2019
4. Because I agree with Rolls-Royce that § 1782 does not reach
purely private arbitrations, there is no need to address its other
arguments in support of its motion.

78a
Appendix K — Appendix
opinionKof the united
states court of appeals FOR THE
SEVENTH CIRCUIT, FILED SEPTEMBER 22, 2020
IN THE United States Court of Appeals
for the Seventh Circuit
No. 19-1847
SERVOTRONICS, INC.,
Petitioner-Appellant,
v.
ROLLS-ROYCE PLC
and THE BOEING COMPANY,
Intervenors-Appellees.
Appeal from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 18-cv-7187 — Elaine E. Bucklo, Judge.
September 19, 2019, Argued
September 22, 2020, Decided
Before S y k es , Chief Judge, and H a milton and
Brennan, Circuit Judges.
S y kes , Chief Judge. Section 1782(a) of Title 28
authorizes the district court to order a person within the
district to give testimony or produce documents “for use

79a
Appendix K
in a proceeding in a foreign or international tribunal.”
This case asks whether a private foreign arbitration is “a
proceeding in a foreign or international tribunal” within
the meaning of the statute. Two decades ago, the Second
and Fifth Circuits answered this question “no,” holding
that § 1782(a) authorizes the district court to provide
discovery assistance only to state-sponsored foreign
tribunals, not private foreign arbitrations. Nat’l Broad.
Co. v. Bear Stearns & Co., 165 F.3d 184, 191 (2d Cir. 1999);
Republic of Kazakhstan v. Biedermann Int’l, 168 F.3d
880, 883 (5th Cir. 1999).
More recently, the Sixth Circuit reached the opposite
conclusion, Abdul Latif Jameel Transp. Co. v. FedEx Corp.
(In re Application to Obtain Discovery for Use in Foreign
Proceedings), 939 F.3d 710, 714 (6th Cir. 2019), and the
Fourth Circuit agreed, Servotronics, Inc. v. Boeing Co.,
954 F.3d 209, 214 (4th Cir. 2020). We join the Second and
Fifth Circuits and hold that § 1782(a) does not authorize
the district court to compel discovery for use in a private
foreign arbitration.
I. Background
The backdrop for this case is an indemnification
dispute over losses incurred when an aircraft engine
caught fire during testing in South Carolina. Rolls-Royce
PLC manufactured and sold a Trent 1000 engine to the
Boeing Company for incorporation into a 787 Dreamliner
aircraft. In January 2016 Boeing tested the new aircraft
at its facility near the Charleston International Airport. A
piece of metal became lodged in an engine valve, restricting

80a
Appendix K
the flow of fuel to the engine. As Boeing employees
attempted to fix the problem, the engine caught fire,
damaging the aircraft. Boeing demanded compensation
from Rolls-Royce, and in 2017 the companies settled for
$12 million. Rolls-Royce then sought indemnification from
Servotronics, Inc., the manufacturer of the valve.
Under a long-term agreement between Rolls-Royce
and Servotronics, any dispute not resolved through
negotiation or mediation must be submitted to binding
arbitration in Birmingham, England, under the rules
of the Chartered Institute of A rbiters (“CIA rb”).
Negotiations did not bear fruit, so Rolls-Royce initiated
arbitration with the CIArb. For convenience, the parties
agreed to conduct the arbitration in London.
Servotronics thereafter filed an ex parte application in
the U.S. District Court for the Northern District of Illinois
asking the court to issue a subpoena compelling Boeing
to produce documents for use in the London arbitration.
The application invoked 28 U.S.C. § 1782(a), and the judge
initially granted it and issued the requested subpoena.
Rolls-Royce intervened and moved to quash the subpoena,
arguing that § 1782(a) does not permit a district court to
order discovery for use in a private foreign commercial
arbitration. Boeing intervened and joined the motion
to quash. The judge reversed course and quashed the
subpoena. She agreed with Rolls-Royce and Boeing that
§ 1782(a) does not authorize the court to provide discovery
assistance in private foreign arbitrations. Servotronics
appealed. Rolls-Royce and Boeing jointly defend the
judge’s ruling.

81a
Appendix K
II. Discussion
A. 	Statutory Framework
Sections 1781 and 1782 of Title 28 govern the district
court’s authority to provide discovery assistance in
litigation in foreign and international tribunals. Section
1781 describes a formal judicial instrument known as a
“letter rogatory”—a letter of request “issued by one court
to a foreign court, requesting that the foreign court (1)
take evidence from a specific person within the foreign
jurisdiction ... and (2) return [it] ... for use in a pending
case.” Letter of Request, Black’s Law Dictionary (11th
ed. 2019).
Letters rogatory are transmitted through diplomatic
agencies; the statute provides that the State Department
may, either “directly, or through suitable channels, ...
receive a letter rogatory issued, or request made, by
a foreign or international tribunal, to transmit it to
the tribunal, officer, or agency in the United States to
whom it is addressed,” and “receive and return it after
execution.” 28 U.S.C. § 1781(a)(1). The assistance is
reciprocal; tribunals in the United States may issue letters
rogatory through the State Department to a “foreign or
international tribunal, officer, or agency.”1 Id. § 1781(a)(2).
1. A State Department regulation elaborates:
In its broader sense in international practice, the
term letters rogatory denotes a formal request from a
court in which an action is pending, to a foreign court
to perform some judicial act. Examples are requests

82a
Appendix K
Section 1782 works in tandem with and supplements
§ 1781, empowering the district court to order a person
within the district to give testimony or provide evidence
for use in foreign litigation, either in response to a letter
rogatory or on application of a person with an interest
in the litigation. The key portion of the statute reads as
follows:
The district court of the district in which a
person resides or is found may order him to
give his testimony or statement or to produce a
document or other thing for use in a proceeding
in a foreign or inter national tr ibunal ,
including criminal investigations conducted
before formal accusation.
Id. § 1782(a) (emphasis added). The link to § 1781 comes
in the next sentence:
The order may be made pursuant to a letter
rogatory issued, or request made, by a foreign
or international tribunal or upon the application
of any interested person and may direct that
the testimony or statement be given, or the
for the taking of evidence, the serving of a summons,
subpoena, or other legal notice, or the execution of
a civil judgment. In United States usage, letters
rogatory have been commonly utilized only for the
purpose of obtaining evidence. Requests rest entirely
upon the comity of courts toward each other, and
customarily embody a promise of reciprocity.
22 C.F.R. § 92.54.

83a
Appendix K
document or other thing be produced, before a
person appointed by the court.
Id.
The statute also gives the judge the discretion to
prescribe procedures for the collection of evidence,
including the option to require adherence to the practice
and procedure of the foreign country or international
tribunal in question:
The order may prescribe the practice and
procedure, which may be in whole or part the
practice and procedure of the foreign country
or the international tribunal, for taking
the testimony or statement or producing the
document or other thing. To the extent that
the order does not prescribe otherwise, the
testimony or statement shall be taken, and
the document or other thing produced, in
accordance with the Federal Rules of Civil
Procedure.
Id. (emphasis added).
This case involves a § 1782(a) application filed by a
party to a private commercial arbitration in the United
Kingdom; there is no letter rogatory or request from a
foreign or international tribunal. Rather, Servotronics
invoked the statute by virtue of its status as an “interested
person” in the London arbitration. The judge issued the
subpoena ex parte but later quashed it after concluding

84a
Appendix K
that § 1782(a) does not authorize federal courts to provide
discovery assistance to private foreign arbitrations.
Servotronics takes issue with that interpretation of the
statute, so we’re asked to resolve a purely legal question
and our review is de novo. United States v. Titan Int’l,
Inc., 811 F.3d 950, 952 (7th Cir. 2016).
B. Applicability to Private Foreign Arbitrations
This is a question of first impression for our circuit,
but several other circuits have addressed it and a split
has recently emerged. The disagreement centers on the
meaning of the statutory phrase “foreign or international
tribunal”—or more particularly, the word “tribunal.”
The Second Circuit was the first to confront the
question more than 20 years ago. The court began
by observing that although the phrase “foreign or
international tribunal” does not unambiguously exclude
private arbitral panels, neither does it unambiguously
include them. Nat’l Broad. Co., 165 F.3d at 188. After
reviewing the statutory and legislative history, the court
concluded that the phrase, considered in context, is limited
to state-sponsored foreign and international tribunals. Id.
at 188-91. The court added that a contrary interpretation
would create an inexplicable conflict with the Federal
Arbitration Act. More specifically, a broad grant of
federal-court authority to compel discovery in private
foreign arbitrations “would stand in stark contrast to” the
extremely limited judicial role in domestic arbitrations. Id.
at 191. Accordingly, the court held that the statute does
not authorize district courts to order discovery for use in
private foreign arbitrations. Id.

85a
Appendix K
T he Fi f th Ci rcu it qu ick ly ag reed w ith that
interpretation, Biedermann Int’l, 168 F.3d at 883, and
that’s where things stood for many years. No other
appellate court weighed in until last year when the Sixth
Circuit read the word “tribunal” broadly and held that the
district court’s authority to compel discovery for use in
foreign litigation extends to private foreign arbitrations.
In re Application to Obtain Discovery, 939 F.3d at 714.
A few months later, the Fourth Circuit aligned itself
with the Sixth Circuit in a case involving a § 1782(a)
application by Servotronics in a district court in South
Carolina seeking discovery for use in this same London
arbitration. Servotronics, 954 F.3d at 212-13. The
Fourth Circuit’s decision differs in one respect from the
Sixth Circuit’s; it rests in part on the court’s view that
contractual arbitration is the “product of governmentconferred authority” both in the United Kingdom and the
United States. 2 Id. at 214.
Finally, and more recently still, the Second Circuit
reaffirmed its interpretation of § 1782 notwithstanding
the contrary views of the Sixth and Fourth Circuits. In
re Guo, 965 F.3d 96, 104 (2d Cir. 2020). The court also
2. That view strikes us as mistaken. Contractual arbitration
is private dispute resolution. The source of a private arbitral
panel’s adjudicative authority is found in the parties’ contract, not
a governmental grant of power. A private arbitral body does not
exercise governmental or quasi-governmental authority. But we need
not explore this point further. No one here argues that arbitration
in the United Kingdom (or the United States) is the product of
government-conferred authority.

86a
Appendix K
held that nothing in the Supreme Court’s decision in Intel
Corp. v. Advanced Micro Devices, Inc., 542 U.S. 241, 124
S. Ct. 2466, 159 L. Ed. 2d 355 (2004), required a course
correction. In re Guo, 965 F.3d at 105-06. We’ll return
to Intel in a moment; for now, it’s enough to say that the
Court’s decision does not tip the scales in favor of either
side of the circuit split.
For several reasons, we side with the Second and
Fifth Circuits in this interpretive debate. First, the word
“tribunal” is not defined in the statute, and dictionary
definitions do not unambiguously resolve whether private
arbitral panels are included in the specific sense in which
the term is used here. All definitions agree that the word
“tribunal” means “a court,” but some are more expansive,
leaving room for both competing interpretations.
For example, in 1964 when the present-day version of
the statute was adopted, Black’s Law Dictionary defined
“tribunal” as: “The seat of a judge; the place where he
administers justice. The whole body of judges who compose
a jurisdiction; a judicial court; the jurisdiction which the
judges exercise.” Tribunal, Black ’s L aw Dictionary
(4th ed. 1951). That definition appears to exclude private
arbitral panels. Today the legal definition of “tribunal” is
broader: “A court of justice or other adjudicatory body.”
Tribunal, Black’s Law Dictionary (11th ed. 2019).
Nonlegal definitions are similar. See, e.g., Tribunal,
The Concise Oxford Dictionary of Current English
(5th ed. 1964) (defining “tribunal” as “[j]udgement-seat ...;
court of justice”); Tribunal, Webster’s New T wentieth

87a
Appendix K
Century Dictionary (2d ed. 1964) (defining “tribunal”
as “the seat of a judge; ... a court of justice”); Tribunal,
A merican Heritage Dictionary of the English Language
(5th ed 2018) (defining “tribunal” as “[a] law court[;] ... [a]
committee or board appointed to adjudicate in a particular
matter”); Tribunal, Merriam-Webster’s Dictionary and
Thesaurus (2020) (defining “tribunal” as “the seat of a
judge[;] a court of justice[;] something that decides or
determines, [as in] the ~ of public opinion ...”).
In short, canvassing dictionary definitions is
inconclusive. In both common and legal parlance,
the phrase “foreign or international tribunal” can be
understood to mean only state-sponsored tribunals, but
it also can be understood to include private arbitration
panels. Both interpretations are plausible.
C. 	Statutory Context
As always, context is key to unlocking meaning. After
all, statutory words and phrases “cannot be construed
in a vacuum. ... It is a fundamental canon of statutory
construction that the words of a statute must be read in
their context and with a view to their place in the overall
statutory scheme.” Home Depot U.S.A., Inc. v. Jackson,
139 S. Ct. 1743, 1748, 204 L. Ed. 2d 34 (2019) (quoting
Davis v. Mich. Dep’t of Treasury, 489 U.S. 803, 809, 109
S. Ct. 1500, 103 L. Ed. 2d 891 (1989)). Once we situate the
word “tribunal” in its proper statutory context, the more
expansive reading of the term—the one that includes
private arbitrations—becomes far less plausible.

88a
Appendix K
As we’ve noted, the language of present-day § 1782
dates to 1964. See Intel, 542 U.S. at 247-49 (describing
the statutory history of § 1782). The text was proposed
by the Commission on International Rules of Judicial
Procedure, a study group created by Congress in 1958
with the following statutory charge:
The Commission shall investigate and study
existing practices of judicial assistance and
cooperation between the United States and
foreign countries with a view to achieving
improvements. To the end that procedures
necessary or incidental to the conduct and
settlement of litigation in State and Federal
courts and quasi-judicial agencies which involve
the performance of acts in foreign territory,
such as the service of judicial documents, the
obtaining of evidence, and the proof of foreign
law, may be more readily ascertainable,
efficient, economical, and expeditious, and
that the procedures of our State and Federal
tribunals for the rendering of assistance to
foreign courts and quasi-judicial agencies be
similarly improved, the Commission shall—
(a) draft for the assistance of the
Secretary of State international
agreements to be negotiated by him;
(b) draft and recommend to the
President any necessary legislation;

89a
Appendix K
(c) recommend to the President such
other action as may appear advisable
to improve and codify international
pract ice i n civ i l, cr i m i na l, a nd
administrative proceedings; and
(d) perform such other related duties
as the President may assign.
Act of Sept. 2, 1958, Pub. L. No. 85-906, § 2, 72 Stat. 1743,
1743. Noticeably absent from this statutory charge is any
instruction to study and recommend improvements in
judicial assistance to private foreign arbitration.
“Six years later, in 1964, Congress unanimously
adopt ed leg islat ion recom mended by the Ru les
Commission,” which “included a complete revision of
§ 1782.” Intel, 542 U.S. at 248; Act of Oct. 3, 1964, Pub.
L. No. 88-619, § 9, 78 Stat. 995, 997. The legislation also
revised 28 U.S.C. § 1696, pertaining to service of process
in foreign litigation, and § 1781, regarding letters rogatory.
Act of Oct. 3, § 4, 78 Stat. 995; id. § 8, 78 Stat. 996. All three
statutes use the identical phrase “foreign or international
tribunal” to describe the object of the district court’s
litigation assistance.
Identical words or phrases used in different parts of
the same statute (or related statutes) are presumed to
have the same meaning. Merrill Lynch, Pierce, Fenner
& Smith Inc. v. Dabit, 547 U.S. 71, 86, 126 S. Ct. 1503,
164 L. Ed. 2d 179 (2006). Service-of-process assistance
and letters rogatory—governed by §§ 1696 and 1781—are

90a
Appendix K
matters of comity between governments, which suggests
that the phrase “foreign or international tribunal” as used
in this statutory scheme means state-sponsored tribunals
and does not include private arbitration panels.
Within § 1782(a) itself, the word “tribunal” appears
three times—first in the operative sentence authorizing the
district court to order discovery “for use in a proceeding
in a foreign or international tribunal,” and again in the
next sentence, which authorizes the court to act on a letter
rogatory issued by “a foreign or international tribunal.”
Two sentences later the word “tribunal” appears again
where the statute provides that the court’s discovery order
“may prescribe the practice and procedure, which may be
in whole or part the practice and procedure of the foreign
country or the international tribunal.” (Emphasis added.)
The highlighted phrase parallels the earlier phrase
“foreign or international tribunal.” Harmonizing this
statutory language and reading it as a coherent whole
suggests that a more limited reading of § 1782(a) is
probably the correct one: a “foreign tribunal” in this
context means a governmental, administrative, or quasigovernmental tribunal operating pursuant to the foreign
country’s “practice and procedure.” Private foreign
arbitrations, in other words, are not included.
D. Conflict with the Federal Arbitration Act
This narrower understanding of the word “tribunal”
avoids a serious conflict with the Federal Arbitration Act
(“FAA”), 9 U.S.C. §§ 1-15 (amended 1988). We “interpret

91a
Appendix K
Congress’s statutes as a harmonious whole rather than at
war with one another.” Epic Sys. Corp. v. Lewis, 138 S.
Ct. 1612, 1619, 200 L. Ed. 2d 889 (2018). When a statute
is susceptible of two interpretations, one that creates
a conflict with another statute and another that avoids
it, we have an obligation to avoid the conflict “if such a
construction is possible and reasonable.” Precision Indus.,
Inc. v. Qualitech Steel SBQ, LLC, 327 F.3d 537, 544 (7th
Cir. 2003). Applying this principle to the relationship
between the FAA and § 1782 confirms that the latter does
not apply to private foreign arbitrations.
The discovery assistance authorized by § 1782(a) is
notably broader than that authorized by the FAA. Most
significantly, the FAA permits the arbitration panel—but
not the parties—to summon witnesses before the panel to
testify and produce documents and to petition the district
court to enforce the summons. 9 U.S.C. § 7. Section 1782(a),
in contrast, permits both foreign tribunals and litigants
(as well as other “interested persons”) to obtain discovery
orders from district courts. If § 1782(a) were construed
to permit federal courts to provide discovery assistance
in private foreign arbitrations, then litigants in foreign
arbitrations would have access to much more expansive
discovery than litigants in domestic arbitrations. It’s hard
to conjure a rationale for giving parties to private foreign
arbitrations such broad access to federal-court discovery
assistance in the United States while precluding such
discovery assistance for litigants in domestic arbitrations.
Moreover, the FAA applies to some foreign arbitrations
under implementing legislation for the Convention on the

92a
Appendix K
Recognition and Enforcement of Foreign Arbitral Awards
and the Inter-American Convention on International
Commercial Arbitration. See 9 U.S.C. §§ 201-208, 301307; Nat’l Broad. Co., 165 F.3d at 187. Reading § 1782(a)
broadly to apply to all private foreign arbitrations creates
a direct conflict with the Act for this subset of foreign
arbitrations.
In sum, what the text and context of § 1782(a) strongly
suggest is confirmed by the principle of avoiding a collision
with another statute: a “foreign or international tribunal”
within the meaning of § 1782(a) is a state-sponsored,
public, or quasi-governmental tribunal.
E. Intel and Legislative History
Intel was the Supreme Court’s first—and to date
only—occasion to address § 1782(a). The Court held that
the statute may be invoked by a nonlitigant “interested
person,” Intel, 542 U.S. at 256-57, and also that a foreign
proceeding need not be pending or imminent but only
“within reasonable contemplation,” id. at 259. And the
Court clarified that § 1782(a) does not contain an implicit
foreign-discoverability requirement. Id. at 260-63. Finally,
and most pertinent here, the Court considered whether the
proceeding at issue in the case—before the Directorate
General for Competition of the Commission of the
European Communities—was a “proceeding in a foreign
or international tribunal.” The Court had no difficulty
concluding that the Directorate, as a public agency with
quasi-judicial authority, qualified as a “foreign tribunal”
within the meaning of § 1782(a).

93a
Appendix K
A long the way to this last holding, the Court
sketched the legislative history of § 1782 and as a part
of its discussion quoted from a footnote in a law-review
article written by the law professor who served as
the reporter for the commission that proposed what
eventually became § 1782. This passage in Intel has taken
on outsized significance here, so we quote it in full: “The
term ‘tribunal’ [in § 1782(a)] ... includes investigating
magistrates, administrative and arbitral tribunals,
and quasi-judicial agencies, as well as conventional civil,
commercial, criminal, and administrative courts.” Id. at
258 (emphasis added) (quoting Hans Smit, International
Litigation Under the United States Code, 65 Colum. L.
Rev. 1015, 1026 n.71 (1965)).
Servotronics relies heavily on the professor’s inclusion
of “arbitral tribunals” in this footnoted list, but this
reliance is misplaced. The quotation from the professor’s
article appears in the Court’s opinion as part of an
explanatory parenthetical. There is no indication that
the phrase “arbitral tribunals” includes private arbitral
tribunals. Even if there were such an indication, we see
no reason to believe that the Court, by quoting a lawreview article in a passing parenthetical, was signaling
its view that § 1782(a) authorizes district courts to provide
discovery assistance in private foreign arbitrations.
In short, this passage cannot bear the weight
Servotronics places on it. For the foregoing reasons, we
join the Second and Fifth Circuits in concluding that
§ 1782(a) does not authorize the district courts to compel
discovery for use in private foreign arbitrations.
A ffirmed

